Office of
Inspector
General
Semiannual
Report to
the Congress

October 1, 1985 to
March 31, 1986


May 1,1986
FOREWORD
This report, submitted pursuant to the Inspector General Act
of 1978, summarizes Office of Inspector General activity over
the 6-month period ending March 31, 1986. It is my first Report
to the Congress since assuming the position of Inspector General
in November 1985.
The first 5 months of my tenure have represented a period of
significant challenge. Perhaps the greatest challenge has been
balancing the goals I have established for this Office against
the limitations imposed by budget constraints. Although certain
trade-offs have had to be made, I believe this report demon-
strates that the Office of Inspector General had a significant
impact during the period.
This is in large measure a tribute to the personnel staffing this
Office and performing the audits and investigations. They have
willingly filled the void created by staffing losses and redoubled
their efforts. It also speaks to the cooperation demonstrated by
Agency management in the interest of greater economy, effi-
ciency, and effectiveness. Their willingness to bring matters to
the attention of the Office of Inspector General and to act on
our recommendations has proved invaluable.




WILLIAM R. BARTON
Inspector General

April 30, 1986
INTRODUCTION AND OVERVIEW
A. Introduction                                              Federal Supply Service

This report submitted pursuant to the Inspector Gen-         The OIG invested 30 percent of its resources in audits
eral Act of 1978, chronicles the activities of the General   and investigations of Federal Supply Service (FSS) pro-
Services Administration (GSA) Office ofInspector Gen-        grams. Noteworthy audits issued this period advised
eral (OIG) between October 1, 1985 and March 31, 1986.       management of:
It is the fifteenth Report to the Congress since the ap-       • Contract award practices that might allow margin-
pointment of GSA's first Inspector General.                      ally responsible firms to obtain GSA contracts.
                                                               • Inventory management procedures that failed to
                                                                 remove long supply items from the depot inventory.
B. Overview                                                    • A potential cost avoidance of $4.5 million on a con-
The following paragraphs provide an overview of OIG              tractor's claim.
audit and investigative coverage of the Agency, as well      OIG audits and investigations also surfaced information
as a summary of OIG accomplishments and productiv-           that was used by GSA management and/or the Depart-
ity. In addition, this section highlights significant OIG    ment of Justice to:
prevention activities.
                                                               • Reach three civil settlement agreements, amount-
                                                                 ing to almost $4.4 million, with FSS contractors.
1. Audit and Investigative                                     • Negotiate the recovery of $137,000 from a hospital
                                                                 supply firm.
       Coverage of GSA Programs
                                                               • Suspend an office furniture firm and its president
Audit and investigative coverage of GSA programs                 pending the resolution of criminal charges against
identified a number of opportunities for more efficient          the firm's president.
and effective Agency operations. Overall, this report re-
                                                             Detailed information on these and other activities is
flects a strong commitment on the part of GSA man-
                                                             presented in Section III.
agement to make those improvements. Notably, in the
areas of GSA's Fire and Safety Program and contract
award procedures, the Administrator, in conjunction
with the respective Commissioners, personally initiated      Information Resources Management
corrective actions in response to our recommendations.       Service
                                                             OIG internal reviews of the Information Resources
Public Buildings Service                                     Management Service (IRMS) emphasized its oversight
                                                             role relative to Government telecommunication needs.
The OIG expended 49 percent of its direct workhours          As a result, IRMS is now in the process of addressing
reviewing Public Buildings Service (PBS) programs.           the need for:
Resultant audits assisted PBS managers in taking action
                                                               • Improvements in the management of civilian agen-
on:
                                                                 cies' telecommunication systems to increase econ-
  • Terms in a proposed lease offer that would result            omy, efficiency, and effectiveness in Federal tele-
    in expenditures greatly exceeding the cost of con-           communications procurements.
    structing a border station facility.
                                                               • Effective standard invoice verification procedures
  • Energy consumption levels that exceeded the max-             for agencies procuring teleprocessing services.
    imum allowable under the terms of two building
                                                             In addition, IRMS successfully negotiated $9.2 million
    leases.
                                                             in pricing concessions on an ADP contract as a result
  • Weaknesses found during reviews of the Fire and          of the findings developed through an OIG preaward
    Safety Program.                                          audit.
  S    An unnecessary $132,907 modification to a contract    In response to OIG audits and investigations, the U.S.
       for elevator services.                                Attorney and/or GSA management:
  «&   Potential cost avoidances of almost $9 million on       • Successfully prosecuted a former Government em-
       three contractor proposals.                               ployee who fraudulently used a Federal telephone
                                                                 credit card.
In addition, an OIG investigation led to a $40,000 set-
tlement agreement for alleged false claims by a security       • Reached a $615,000 civil fraud settlement with an
firm.                                                            IRMS contractor.
Detailed information on these and other activities is        Detailed information on these and other activities is
presented in Section II.                                     presented in Section IV.
     Other GSA Coverage                                                           .. 216 investigative cases opened and 267 closed;
     The OIG issued 20 internal audit reports dealing with                        .. 22 case referrals accepted for criminal prosecution
     GSA organizations such as the Office of Administration,                         and 3 case referrals accepted for civil litigation;
     the Federal Property Resources Service, and the Office
                                                                                  .. 31 indictments/informations/complaints on crimi-
     of the Comptroller. These reviews addressed a variety
                                                                                     nal and civil referrals;
     of areas, including GSA activities in support of the Fed-
     eral Emergency Management Agency (FEMA), con-                                .. 17 successful criminal prosecutions;
     sultants, imprest funds, and implementation of the Fed-
     eral Managers' Financial Integrity Act. In response to                       /I   7 settlements on civil fraud referrals;
     issues raised in four reports, management took action                        /I   25 contractor suspensions and 31 contractor de-
     to:                                                                               barments on administrative referrals;
       .. Promulgate operating instructions to overcome                           .. 24 reprimands, 20 suspensions, and 14 termina-
          problems associated with GSA billings to FEMA.                             tions on administrative referrals involving GSA
                                                                                     employees;
       .. Defer a contract award until appropriate funding
          could be obtained.                                                      .. 7 Inspector General subpoenas; and
     Detailed information on these and other activities is                        /I   257 legislative initiatives and 108 regulations and
     presented in Section V.                                                           directives reviewed.
                                                                              Management commitments to more efficiently use re-
     2. OIG Accomplishments and                                               sources, management commitments to recover funds,
        Productivity                                                          court-ordered recoveries, and investigative recoveries
                                                                              totaled $68,144,214 during the first halfofFY 1986. This
     The OIG tracks its accomplishments both on an aggre-                     represented a return of $6.74 for every $1 budgeted to
     gate basis and, in critical areas of our performance, on                 OIG operations during the 6-month period.
     the basis of actual staffyears incurred. The latter cal-
     culations yield productivity data that are less subject to               Detailed information on these and other activities is
     fluctuating staffing levels.                                             presented in Sections VI and VII.

     Overall OIG Accomplishments                                              OIG Productivity

     OIG accomplishments this period included:                                As noted previously, in critical areas of our performance
                                                                              we compute OIG productivity based on actual staff'-
       .. 336 audit reports;                                                  years-full-time equivalent (FTE) positions-incurred .
                                                                              Since these data are less subject to fluctuating staffing
       .. $86,288,660 in recommendations for more efficient
                                                                              levels, they are an excellent mechanism for measuring
          use of resources and in recovery recommendations;
                                                                              OIG performance over time .
       .. $62,369,564 in management commitments to more
                                                                              The following table presents these productivity data for
          efficiently use resources;
                                                                              FYs 1983, 1984, and 1985, and the first half ofFY 1986.
       .. $5,774,650 in management commitments to re-                         The table shows that, during the first half of FY 1986,
          cover funds, court-ordered recoveries, and inves-                   OIG productivity generally stayed close to the levels
          tigative recoveries;                                                established in FY 1985.



                                                                                                                         First Half
                           Productivity Factor                            FY 83             FY 84           FY 85          FY 86

           Total costs recovered/avoided* per audit,
             counsel, and investigations FTE ...........                $352,910          $522,688        $444,.152      $415,514
           Recommended cost avoidance and recovery
             per audit FTE ............................                 $587,875          $1,357,104      $601,564       $741,630
           Audit reports per audit FTE ..................                  3.2                3.1            2.7           2.9
           Referrals (criminal, civil, and administrative)
             per investigations FTE ....................                   5.9                8.4            7.6            6.1
           Criminal indictments/informations/complaints
             and successful prosecutions per
             investigations FTE .......................                     1.3               0.9            1.2            1.0
           Employee actions (reprimands, terminations,
             suspensions, and demotions) per
             investigations FTE .......................                     1.2               1.6            1.5            1.3

     *Includes management commitments, court-ordered recoveries, and investigative recoveries.
ii
OIG productivity in FY 1985 and the first half of FY          Highlights of our efforts during the period include:
1986 appear to be reflecting the budget problems that
have been confronting the OIG for some time now. These          • Distribution of a practical ethics brochure to GSA
budget problems, which are discussed in Section I un-             employees nationwide.
der "Staffing and Budget Issues," have created a series         • Completion of 29 preaward advisory reviews of
of staffing inefficiencies and dislocations. As these inef-       leases involving annual rentals in excess of
ficiencies and dislocations continue, their effect                $200,000.
compounds.
                                                                .. Integrity Awareness Briefings for 727 GSA
                                                                   employees.
3. Prevention Activities
                                                                • Receipt of 368 Hotline calls/letters and referral of
As detailed in Section VIII, the ~IG's program to pre-            107 of these complaints for further action.
vent fraud, waste, and mismanagement encompasses a
wide variety of activities.




                                                                                                                         iii
TABLE OF CONTENTS
                                                                 Page                                                                      Page
INTRODUCTION AND OVERVIEW ...... .                                        SECTION VI-STATISTICAL SUMMARY
                                                                          OF OIG ACCOMPLISHMENTS. . . . . . . . . . .. 18
REPORTING REQUIREMENTS ...........                                   vi    A. OIG Accomplishments ................ 18
SECTION I-ORGANIZATION, STAFFING,                                           B. Summary Statistics ................... 19
AND BUDGET . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
                                                                          SECTION VII-REVIEW OF
  A. Organization. . . . . . . . . . . . . . . . . . . . . . . . .    1   LEGISLATION AND REGULATIONS. . . . .. 25
  B. Office Locations. . . . . . . . . . . . . . . . . . . . . .      1    A. Legislation/Regulations Reviewed ...... 25
  C. Staffing and Budget. . . . . . . . . . . . . . . . . . .         1     B. Significant Comments. . . . . . . . . . . . . . . .. 25
  D. Staffing and Budget Issues. . . . .. . . . . . .                 1
                                                                          SECTION VIII-OTHER OIG ACTIVITIES . .. 27
SECTION II-PUBLIC BUILDINGS                                                 A. OIG Prevention Program .............. 27
SERVICE.................... ........ .....                            3     B. Projects Sponsored by the PCIE ........ 28
  A. Overview of OIG Activity. . . . . . . . . . . . .                3
  B. Significant Audits and Investigations. . .                       3
  C. Significant Pre award Audits. . . . . . . . . . .                6
  D. Statistical Highlights. . . . . . . . . . . . . . . . . .        6
  E. Significant Audits From Prior Reports. . . .                     7
SECTION III-FEDERAL SUPPLY                                                APPENDICES
SERVICE................................. 9                                APPENDIX I-AUDIT REPORT
  A. Overview of OIG Activity. . . . . . . . . . . . . 9                  REGISTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 30
 B. Significant Audits and Investigations. . . 9
  C. Significant Pre award Audits. . . . . . . . . .. II                  APPENDIX II-DELINQUENT DEBTS .. .. 43
 D. Statistical Highlights. . . . . . . . . . . . . . . . .. 11
 E. Significant Audits From Prior Reports. . .. 12
SECTION IV-INFORMATION
RESOURCES MANAGEMENT SERVICE. ..                                     13
  A. Overview of OIG Activity. . . . . . . . . . . ..                13   LIST OF TABLES
  B. Significant Audits and Investigations. ..                       13
                                                                          1. Summary of OIG Audits ................. 18
  C. Significant Preaward Audits. . . . . . . . . ..                 14
                                                                          2.   Resolution of OIG Audits ................                      19
  D. Statistical Highlights. . . . . . . . . . . . . . . . ..        14
                                                                          3.   Resolution Decisions on OIG Audits. . . . ..                   20
  E. Significant Audits From Prior Reports . . ..                    15
                                                                          4.   Summary of Contract Audit Settlements ..                       21
SECTION V-OTHER GSA COVERAGE ...                                     16   5.   Investigative Workload. . . . . . . . . . . . . . . . ..       22
  A. Overview of OIG Activity. .. . .... . . . ..                    16   6.   Distribution of Cases Opened This Period.                      22
 B. Significant Audits. . . . . .. . .. . . . . . . . . ..           16   7.   Summary of OIG Subject Referrals. . . . . ..                   23
  C. Statistical Highlights. . . . . . . . . . . . . . . . ..        16   8.   Summary of Criminal and Civil Actions ...                      23
  D. Significant Audits From Prior Reports. . ..                     17   9.   Criminal and Civil Recoveries. . . . . . . . . . ..            24




                                                                                                                                                     v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-     No. 96-829 relative to the 1980 Supplemental Appro-
     ments prescribed by the Inspector General Act of 1978       priations and Rescission Bill is also cross-referenced to
     to the specific pages where they are addressed. The in-     the appropriate page of the report.
     formation requested by the Congress in Senate Report



                                               Source                                                   Page

          Inspector General Act
          1. Section 4(a)(2)-Review of Legislation and Regulations .................... .                25
          2. Section 5( a)( 1)-Significant Problems, Abuses, and Deficiencies ............ .         3,9, 13, 16
          3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
             Abuses, and Deficiencies ............................................... .              3,9, 13, 16
          4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............. .              7, 12,15, 17
          5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............... .               22
          6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
             Refused .................. , ........................................... .           None This Period
          7. Section 5(a)(6)-List of Audit Reports .................................... .               30
          Senate Report No. 96-829
          1. Resolution of Audits ................................................... .                  19
          2. Delinquent Debts ...................................................... .                   43




vi
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET
Pursuant to the Inspector General Act of 1978, an Office of        available for obligation during the reporting period.
Inspector General (OIG) was established within the General
                                                                   While the OIG's approved staffing level is 452 full-time
Services Administration (GSA) on October 1, 1978. As currently
                                                                   equivalent (FTE) positions, only 369 FTE can be funded
configured, the OlG consists of four offices that function coop-
                                                                   during FY 1986. As of March 31, 1986, the OIG em-
eratively to perform the missions legislated by the Congress.
                                                                   ployed 366 permanent full-time employees.


A. Organization
The OIG utilizes a functional organizational structure             D. Staffing and Budget
to provide nationwide coverage of GSA programs and
activities. It consists of:
                                                                      Issues
  • The Office of Audits, a multidisciplinary unit                 In previous Reports to the Congress, we have discussed
    staffed with financial and technical experts who               the serious budget problems that confronted the OIG
    provide comprehensive internal (management) and                in FYs 1984 and 1985. By the end of FY 1985, these
    external (contract) audit coverage. Headquarters               budget problems had resulted in a 30 percent reduction
    divisions direct and coordinate the audit program,             in the OIG workforce.
    which is performed by the 11 field audit offices.              FY 1986 has brought neither budget relief nor budget
  • The Office of Investigations, an investigative unit            stability. The OIG started FY 1986 with an on-board
    that manages a nationwide program to prevent and               staffing level of 374 and a projected fundable staffing
    detect illegal and/or improper activities involving            level of 391. Since October 1, 1985, however, that budget
    GSA programs, personneL and operations. Oper-                  outlook has been significantly altered by two events:
    ations officers at headquarters coordinate and over-             • A GSA reorganization under which 12 employees
    see the investigative activity of II field investiga-              (and the associated funding) were transferred to
    tions offices and 3 resident offices.                              the OIG.
  • The Office of Counsel to the Inspector General,                  • Enactment ofthe Gramm-Rudman-Hollings deficit
    an in-house legal staff that provides opinions and                 reduction legislation, which required a reduction
    advice on matters under OIG review. These attor-                   of $858,000 in the ~iG's FY 1986 funding level.
    neys also manage the civil referral system, formu-                 This funding reduction translated to a reduction of
    late OIG comments on existing and proposed leg-                    17 FTEs.
    islation and regulations, and assist in litigation.
                                                                   The net effect of these events on OIG staffing levels can
  • The Office of Policy, Plans, and Management                    be summarized as follows:
    Systems, a centralized unit that oversees the de-
    velopment of OIG policies and plans, evaluates the               On-board staffing as of 1011/85 . ............ 374
    operations of the other OIG components, provides                 Transfers to OIG from Agency ............. + 12
    data systems support, and handles budgetary, ad-                 FTE reduction required by
    ministrative, and personnel matters.                               Gramm-Rudman-HoUings legislation .... ~
                                                                     Fundable FTE level. ...... , ............... 369
                                                                   In order to accommodate this fundable FTE level, the
Be Office Locations                                                OIG instituted a hiring freeze, which accounted for the
                                                                   loss of 20 OIG staffers through attrition. This loss, cou-
The OIG is headquartered in Washington, D.C., at GSA's             pled with the gain of 12 Agency employees, yielded a
Central Office building. Field audit and investigations            net loss of 8 employees during the period ..We therefore
offices are maintained in each of GSA's regional head-             closed the period with an on-board staffing level of 366.
quarters-Boston, New York, Philadelphia, Atlanta,
                                                                   Staffing fluctuations of this type are difficult to accom-
Chicago, Kansas City, Fort Worth, Denver, San Fran-
                                                                   modate under the best of circumstances. Set against the
cisco, Auburn, and Washington, D.C. Resident inves-
                                                                   30 percent reduction in OIG staffing that had already
tigations offices are located in Cleveland, S1. Louis, and         occurred by the start of FY 1986, they have represented
Los Angeles. A resident audit office is located in San
                                                                   a very substantial challenge to this organization. More-
Juan, Puerto Rico.                                                 over, the challenge is heightened by the nature of the
                                                                   staffing losses. Most of the employees leaving the OIG
                                                                   have been highly skilled professionals, possessing in-
C.. Staffing and Budget                                            depth knowledge of GSA programs and operations.
                                                                   Wherever possible, we have attempted to replicate these
The OIG's approved Fiscal Year (FY) 1986 budget is                 skills but, more often than not. our infrequent replace-
approximately $19.1 million. Some $10.1 million was                ment actions have been accomplished at the entry level       1
    in order to keep overall salary costs down. Conse-           output and productivity data for the period, which speak
    quently, the effects of staffing reductions have been far-   to the inefficiencies and dislocations resulting from con-
    reaching due to the concommitant loss of skills and          tinued attrition over the past few years.
    experience. The most obvious effect is evident in our




2
SECTION II-PUBLIC BUILDINGS SERVICE
The Public Buildings Service (PBS) manages much of the Fed-            we reinitiated audits in all 11 GSA regions. Since De-
eral Government's real estate assets nationwide. Its responsi-         cember, we have issued six reports on PCBs indicating
bilities extend from constructing, purchasing, and leasing space       that management's emphasis on this area is paying off,
for Government use to maintaining and protecting that space.           although regulatory compliance could be improved. We
In the first half of Fiscal Year 1986, the total aVlflilable funding   will report on the comprehensive findings in our next
authority of the Federal Buildings Fund was over $2.1 billion.         Report to the Congress.
During the same period, PBS obligated almost $1.2 billion of
                                                                       The OIG also issued 97 contract audits (almost 49 per-
these funds.
                                                                       cent of all contract audits issued) on PBS procurement
Commensurate with this level of activity, the DIG devoted some         actions. We recommended cost avoidances and cost re-
69,952 direct staffhours pursuing 505 audit and invest(qative          coveries totaling over $26 million. Three audits, which
assignments. These figures reflect 49 percent of total DIG direct      account for almost $9 million of the recommended cost
staffhours and approximately 49 percent of all work assignments.       avoidances, are highlighted herein.
                                                                       The OIG completed 123 investigative cases involving
                                                                       PBS programs, operations, and employees; most in-
                                                                       volved allegations of white collar crimes. One notable
A.. Overview of OIG                                                    case resulted in a $40,000 pretrial civil settlement agree-
    Activity                                                           ment after OIG investigators found that a GSA security
                                                                       contractor had falsely certified that it had provided con-
This period, the OIG issued 101 internal reports on PBS                tractually required training.
lease enforcement efforts, contract award and admin-
istration practices, construction activities, fire and safety
systems, and buildings management field office oper-
ations. Some of the more significant internal reviews
                                                                       Be Significant Audits and
issued this period advised PBS managers 'of:                              Investigations
   .. The need to seek more favorable terms on the lease
      offer for a proposed new border station facility.                This section summarizes significant internal audits and inves-
                                                                       tigations dealing with PBS. Significant preaward contract au-
   .. Non-enforcement of a provision in two GSA leases                 dits are presented in Section C.
      that will result in excess energy payments esti-
      mated at $848,000 and $106,000, respectively, over
      the terms of the leases .                                        Construction of a Border Station
   .. Weaknesses in GSA's Fire and Safety Program,
                                                                       As part of a regional review of border station construc-
      mainly relating to the operation, maintenance, and
                                                                       tion and leasing, the OIG evaluated a proposal to lease
      testing of fire protection systems.
                                                                       construct a new border station facility. The new facility
   • Problems with tenant agencies' use of term con-                   is needed to house United States inspection agencies at
     tracts for building alterations that resulted in pay-             the terminus of a newly constructed international bridge.
     ments for poor quality work and for work not
                                                                       Under the terms of lease construction, the lessor erects
     performed.
                                                                       a building to meet Government requirements and, in
   • Internal control weaknesses in the administrative                 return, receives a firm term lease agreement. Our anal-
     procedures used to manage cleaning contracts val-                 ysis of the lessor's proposal found that pursuing this
     ued at $11.6 million.                                             option could cost the Government 77 percent more than
                                                                       Federal construction in the first 15 years of occupancy
   .. An unnecessary $132,907 modification to a contract               alone. Further, the proposed lease term, providing only
      for elevator services.                                           I5-year occupancy rights, would subsequently place the
PBS is now formulating/implementing mrrective ac-                      Government at a disadvantage in sole-source negotia-
tions for each of these reviews, based on our recom-                   tions, since the need for tenancy beyond this term is
mendations. The PBS response to our Fire and Safety                    highly probable.
Program findings has been especially noteworthy; im-                   In our November 19, 1985 final report. we recom-
mediate corrective action was initiated on a building-                 mended to the Regional Administrator that:
by-building basis. This response is indicative of the
high priority both the Administrator and PBS place on                    • The project be reevaluated to determine if Federal
fire and safety issues.                                                    construction would be more advantageous to the
                                                                           Government.
In a related area, our last Report to the Congress advised
that audit work on GSA's controls over polychlorinated                   • If leasing is pursued, GSA should seek benefits
biphenyls (PCBs) had been suspended while GSA de-                          comparable to Federal ownership, Le., long term
veloped a plan for the repair/replacement of trans-                        occupancy of 30 to 40 years, including renewal pe-
formers mntaining PCBs. The Agency has since estab-                        riods, and reduced rent after amortization of con-
lished a PCB Control Program and, in December 1985,                        struction costs.                                             3
    Pending submission of a formal action plan, regional         resources to enhance the fire and safety systems in Fed-
    officials decided to continue lease negotiations on the      eral facilities. This period, the OIG, in an effort to assist
    basis that the pressing need for the border station pre-     management, completed reviews of GSA's Fire and
    cluded Federal construction. On March 28, 1986, the          Safety Program in six regions. These reviews included:
    region signed a 20-year lease with a 10-year renewal         examinations of fire and safety inspection reports; eval-
    option. Under the terms of the agreement, the annual         uations of actions taken to correct unsafe conditions;
    rental rate for the first 20 years is $164,000 lower than    inspections of 33 buildings; and discussions with per-
    originally proposed, with even lower rates during the        sonnel responsible for the operation, maintenance, and
    1O.year renewal period. Overall, we estimate that this       testing of fire protection systems. Individual reports
    agreement will result in a total cost avoidance of $13.6     summarizing specific conditions in each region were,
    million over the 30-year lease term.                         or are being, issued in all six regions reviewed. Addi-
                                                                 tionally' 16 interim reports and advisory letters ad-
                                                                 dressed specific conditions in individual buildings. In
    Lease Enforcement                                            response, PBS initiated immediate corrective action on
                                                                 a building-by-building basis.
    As part of a review of one GSA region's lease enforce-       In a consolidated report, issued on March 28, 1986, we
    ment efforts, the OIG evaluated two leases. These leases     informed the Commissioner, PBS, that, while many sig-
    contained specific provisions governing lessor-pro-          nificant improvements have been made over the last
    vided services as well as specifications for building        year, further strengthening of the program is necessary.
    systems.                                                     We reported that:
    The reviews identified that Government costs for serv-         • Inconsistent application of criteria for classifying
    ices were significantly higher than expected because             certain hazardous conditions could result in en-
    contract specifications were not met. For example, al-           dangerment of life and/or property.
    though the leases established maximum annual build-
    ing energy consumption levels and required the lessors         • Regional PBS inspection personnel have an incom-
    to submit energy verification data, regional officials did       plete understanding of the operation of some
    not enforce the latter provision. Our analyses found ac-         building fire safety systems and, in some cases, are
    tual consumption in both buildings to be approximately           inadequately trained.
    twice the maximum levels. According to our projec-
                                                                   • Critical elements of fire protection systems were
    tions, this will result in excess energy payments of
                                                                     not activated and tested during building in-
    $848,000 over the 1O-year term of one lease and $106,000
                                                                     spections.
    over the 5-year term of the other lease.
                                                                   • Some unsafe conditions had not been corrected even
    In addition, the OIG discovered that GSA had improp-
                                                                     though paperwork indicated that they had been
    erly paid 4 months rent on one lease. The overpayments,
                                                                     fixed.
    which totaled approximately $105,000, resulted pri-
    marily from the entry of erroneous occupancy data into         • Comprehensive manuals describing the technical
    the PBS Information System. The region immediately               aspects of building fire protection systems were
    initiated recovery action and later advised the OIG that         missing, incomplete, or had never been prepared.
    all but $23,089 ofthe overpayments had been recovered.
                                                                 We offered eight recommendations to the Commis-
    In our reports dated January 31 and March 5, 1986, we        sioner, PBS, to correct these and other deficiencies. These
    directed recommendations to the Assistant Regional           included recommendations to:
    Administrator, Office of Public Buildings and Real
    Property, to correct these and other deficiencies. Three       • Develop specific criteria for classifying hazards.
    of the more significant recommendations were:                  • Develop comprehensive operations manuals for fire
      • Perform a full energy study and require the lessor           protection systems.
        to comply with the recommended conservation                • Train personnel responsible for inspecting and
        actions.                                                     maintaining fire protection systems.
      • Require the contracting officer to obtain certifica-       • Clarify current policies and procedures to ensure
        tion that all building systems were designed and             that regional safety inspectors conduct thorough
        constructed in accordance with the lease                     tests of all fire protection systems.
        requirements.
                                                                 The Commissioner'S response to the draft report was
      • Require the contracting officer to recover the $23,089   very positive, agreeing to implement all recommenda-
        balance remaining from the overpayments made to          tions. We are awaiting the action plans for implemen-
        the lessor.                                              tation.
    We are awaiting the Regional Administrator's action
    plans for implementing the recommendations.
                                                                 Indefinite Quantity Contract
                                                                 Administration
    Fire and Safety Program
                                                                 As part of a multiregional review' of indefinite quantity
    The GSA Administrator and PBS senior management              contracts, the OIG evaluated one GSA region's award
4   have made a substantial commitment of personnel and          and administration of four term contracts for building
repairs and alterations. The review also evaluated tenant    istration of cleaning contracts. As of October 1985, the
agency adherence to delegation agreements allowing           region administered 112 contracts worth $11.6 million.
them to place orders against these contracts.
                                                             The review concluded that internal controls required
The review found that the region was generally award-        strengthening in several major areas. Notably, the OIG
ing and administering the contracts in accordance with       identified a $31,075 overpayment to one contractor and
GSA guidelines and contract terms, although some im-         a $17,411 underpayment to another resulting from in-
provements were needed in the area of competition.           adequate controls over contract modifications and con-
However, we identified several problems relative to ten-     tractor payments.
ant agency use of these contracts. Specifically, we found
that the agencies did not properly separate work orders;     In addition, the review identified overcharges of
did not inspect completed work and prepare final in-         $118,087 on four contracts held by a single contractor.
spection reports; improperly allowed the same official       The overcharges resulted from GSA's reliance on the
to order, inspect, and accept work; and did not obtain       firm's inflated pricing data for cleaning materials in ne-
releases of claims prior to payment. As a result, pay-       gotiating the contracts. This matter has been referred to
ments have been made for poor quality work and for           the OIG investigative staff for possible suspension ac-
work that was not performed. GSA has also been ex-           tion.
posed to possible litigation expenses since claims could     In our January 31, 1986 report, we recommended that
be filed against GSA as the contracting agency.              the Assistant Regional Administrator, Office of Public
In our October 23, 1985 report, we offered 11 recom-         Buildings and Real Property:
mendations to the Assistant Regional Administrator,
                                                               • Collect the overpayment from the one contractor
Office of Public Buildings and Real Property, and one
                                                                 and pay any amounts due the other.
recommendation to the Assistant Regional Administra-
tor, Regional Office of Controller, to correct these and       • Implement specified controls over contract modi-
other deficiencies identified in the report. Some of the         fications and contractor payments.
more significant recommendations included:
                                                               • Collect the amounts due the Government as a result
  • Require agencies delegated ordering authority to             of the overcharges for cleaning materials.
    forward copies of work orders to GSA as they are
    issued.                                                  In addition, the OIG offered several recommendations
                                                             to correct other deficiencies disclosed during audit.
  • Enforce the final voucher requirements of the del-
    egation agreements.                                      The Regional Administrator generally concurred with
                                                             the report recommendations. We are awaiting the action
  • Remind tenant agencies to obtain a release of claims,    plans for their implementation.
    prepare final inspection reports, and fulfill work
    order file requirements.
We are awaiting the action plans for implementing the
recommendations in the report.
                                                             Proposed Contract Modification
Pretrial Agreement Settles Civil                             Questioned
Allegations                                                  As part of a review of buildings management operations
                                                             in one GSA region, the OIG examined a proposed con-
On January 6, 1986, a pretrial civil settlement agree-       tract modification, valued at $132,907, to expand ele-
ment was reached with a former GSA security contrac-         vator services at a Federal facility. Under the modifi-
tor. Under the terms of the agreement, the firm will pay     cation, a mechanic would be on-site 3 hours longer each
the Government $40,000 to settle allegations of fraud,       day.
breach of contract, and filing false claims.
                                                             After reviewing the elevator maintenance logs for a 7-
Two successive GSA contracts provided that each of the       month period, the OIG determined that only two ele-
firm's security guards was to receive 40 hours of training   vator failures occurred during the hours that would be
in specified subject matter. In addition, the terms of the   covered by the modification. The only other instance of
second contract required written certification that such     elevator failure occurred after the hours covered by the
training had been provided. 01G investigation dis-           modification.
closed that the firm had not provided the requisite train-
ing and had falsely certified that it had.                   Based upon the relative infrequency of elevator failure
                                                             and the contractor's good preventive maintenance rec-
The OIG originally referred the case to the U.S. Attorney    ord, the OIG concluded that there was insufficient ben-
for criminal prosecution, but the referral was declined.     efit to be derived from the proposed $132,907 expend-
The Department of Justice subsequently filed the civil       iture. Consequently, our October 17, 1985 report
suit.                                                        recommended that the Assistant Regional Administra-
                                                             tor, Office of Public Buildings and Real Property, with-
                                                             draw the proposed modification.
Administration of Cleaning Contracts
                                                             The Regional Administrator agreed to cancel the pro-
The OIG evaluated nine contracts valued at $7 million        posed modification and submitted a responsive action
as part of an overall assessment of one region's admin-      plan. Resolution was achieved on December 30, 1985.          5
    c.    Significant Preaward                                        cient pricing data for subcontractor items, as well as
                                                                      inflated costs. The auditors recommended a cost avoid-
          Audits                                                      ance of $2.8 million, principally due to overstated costs
                                                                      in the following categories: labor, labor burden, mate-
    The OlG's preaward audit program provides information to          rials, equipment, subcontractor, and overhead.
    contracting officers for use in negotiating contracts. The pre-   Negotiations are currently underway with the contrac-
    decisional, advisory nature of preaward audits distinguishes      tor.
    them from other audits.


    $3.9 Million of Proposed Rent Increase                            $2.2 Million of Change Order Proposal
    Questioned                                                        Questioned
    The OIG audited a lease escalation proposal to deter-             At the request of the Regional Administrator, the OIG
    mine if the proposed operating expenses were allow-               audited a $2.4 million change order proposal related to
    able under the terms of the lease. The proposal sub-              the construction of a Federal building. The proposal,
    mitted by the lessor involved a $15.5 million rent increase       submitted by the prime contractor on behalf of a sub-
    over the final 5-year period of the lease.                        contractor, covered costs for additional shoring and
                                                                      bracing work.
    In our report dated January 13, 1986, we advised the
    contracting officer that the proposal included operating           Our October 7, 1985 audit report advised the contract-
    costs not subject to escalation. We further advised that           ing officer that the contractor's cost or pricng data were
    use of historical data, rather than the estimates em-              inadequate and of limited value for negotiation pur-
    ployed by the lessor, resulted in significantly lower cost         poses. It further advised that a qualified analysis of the
    figures. In total, we recommended adjustments equal-               proposal resulted in a determination that all costs were
    ing some $3.9 million.                                             overstated and, in many instances, unsupported or un-
                                                                       allowable. The auditors therefore recommended a $2.2
    Negotiations with the lessor are currently underway.               million cost avoidance.
                                                                       We are awaiting the contracting officer's position on the
    Preaward Recommends $2.8 Million Cost                              questioned costs.
    Avoidance
    The OIG evaluated a $7.2 million pricing proposal sub-
    mitted in response to a GSA solicitation for construction
    services. The audit conduded that the firm's cost or
    pricing data were acceptable for negotiation purposes,            D. Statistical Highlights
    but inadequate in certain respects.
                                                                      The following table compares OIG activity and accom-
    In the November 26, 1985 audit report, we advised the             plishments within PBS to the overall GSA totals for the
    contracting officer that the proposal contained insuffi-          period.



                                             Activity                                          PBS             All GSA

          Audit Reports Issued ............................................ .                    198            335
          Recommended Cost Avoidance .................................. . $42,132,049                       $80,585,800
          Recommended Cost Recovery ................................... . $1,013,359                         $5,702,860
          Management Commitments to Avoid Costs . . . . . . . . . . . . .. . ........ . $25,170,453         $62,364,775
          Management Commitments to Recover Funds . . . . . . .. ......... '"                   $969,363     $5,673,772
          Percentage of Recommended Cost
            Avoidance Agreed to by Management. . . . . . . . . . . . . . . . . . . . . .. . ...   75%             78%
          Percentage of Recommended Cost
            Recovery Agreed to by Management. ........................... .                      100%             74%
          Unresolved Audits Older Than 6 Months (Excluding Preawards) ...... .                     1               3
          Implementation Reviews Finding Unimplemented Recommendations "                           1               3
          New Investigative Cases . . . . . . .. ..... . ........................ .              104             216
          Criminal Referrals (Subjects). .. ..... ..... . .................... .                  35              98
          Civil Referrals (Subjects) ........................................ .                    1               8
          Administrative Referrals (Subjects) ................................ .                 148             293
          Suspension/Debarment Referrals (Subjects) ....................... .                     50              80
          Indictments/Informations/Complaints .............................. .                    14              31
          Successful Criminal Prosecutions ................................. .                     7              17
          Civil Settlements. . . . . . . . .. ........... . ........................ .             4               7
6
E. Significant Audits From                                        On April 9, 1985, the Regional Administrator provided
                                                                  information to the Audit Resolution Division indicating
   Prior Reports                                                  that action had been taken on the recommendation.
                                                                  However, the OIG later determined that the action was
 Under GSA's audit resolution system, the OIG is responsible      not responsive. On July 31, 1985, the DIG recom-
for ensuring resolution of audit recommendations, while the       mended, through the Audit Resolution Division, that
Audit Resolution Division, Office of Administration, is respon-   the region file a new action plan. As of March 31, 1986,
sible for ensuring implementation of resolved audit recommen-     no action plan had been received.
dations. That office therefore furnished the status information   In the interim, the contractor filed suit against the Gov-
on implementation presented herein.                               ernment.
Fourteen audits highlighted in prior Reports to the Congress
require action by PBS management before they are fully im-
plemented. Two reports are not being implemented in accord-       2. Significant Audits Being
ance with established milestones, while the remaining twelve
are being implemented in accordance with established mile-           Implemented According to
stones.                                                              Established Milestones

1. Significant Audits Not Being                                   Excessive Tax Escalation Payments
     Implemented According to
                                                                  Period First Reported: April 1, 1985 to September 30, 1985
     Established Milestones
                                                                  This June 4, 1985 review disclosed that the tax esca-
                                                                  lation clause contained in GSA leases, coupled with
Improvements to the Building                                      some local taxing practices, resulted in exorbitant Gov-
Delegations Program                                               ernment tax escalation payments. The report contained
                                                                  eight recommendations; four are implemented.
Period First Reported: April 1, 1984 to September 30, 1984        The four unimplemented recommendations generally
This September 26, 1984 review disclosed the need to              involve specific actions to reduce GSA's liability for ex-
improve GSA's program for delegating buildings man-               cessive tax escalation payments. Three of the recom-
agement responsibilities to occupying agencies. The re-           mendations, originally scheduled for completion in No-
port contained 32 recommendations; 26 are imple-                  vember 1985, have been renegotiated to April 1986. The
mented.                                                           other recommendation, originally due for implemen-
                                                                  tation in March 1986, has been extended to September
Two of the remaining six recommendations, which in-               1986.
volve collecting $20,999 and establishing a separate
Delegations Unit, were scheduled for completion by Feb-
ruary 1986 and March 1986, respectively. As of March 31,          Design Deficiencies at a Federal Building
1986, the Audit Resolution Division had not received
documentation that either of the two recommendations              Period First Reported: April 1. 1985 to September 30, 1985
had been implemented.
                                                                  This July 31, 1985 review of the mechanical mainte-
The remaining four recommendations, which involve                 nance contract at a Federal building identified major
issues of training, certification, and internal control           design deficiencies in the lighting and heating systems.
evaluations, are to be implemented by September 1986.             None of the three recommendations contained in the
                                                                  report are implemented.
                                                                  The three recommendations involve: (1) determining if
Fire and Life Safety Systems                                      the architect/engineering firm was negligent during de-
                                                                  sign and then taking appropriate administrative action
Period First Reported: Octoher L 1983 to March 3L 1984
                                                                  or seeking damages; (2) evaluating alternatives for in-
A series of seven DIG reviews identified deficiencies in          creasing lighting levels and selecting the most cost-
fire and life safety systems in GSA-controlled space. As          effective option; and (3) determining the cost effective-
of March 31, 1986: implementation had been completed              ness ofretrofitting the heating system so that it is energy
on two reports; implementation was overdue on one                 efficient. The three recommendations were originally
report; and implementation was proceeding according               scheduled for completion in February 1986. Extensions
to established milestones on the remaining four reports.          have been granted 1.0 May 1986.
This section discusses the overdue audit. The four au-
dits being implemented in accordance with established
milestones are discussed in the next section.                     Administration of Cafeteria Contracts
The overdue report has one outstanding recommen-                  Period First Reported: Aprii 1, 1985 co September 30. N85
dation; it involves determining the extent of contractor
liability for boiler damage and holding the contractor            This September 25, 1985 review disclosed that one GSA
responsible for the damage. The recommendation had                region deviated from Central Office procedures when
an implementation date of December 31, 1984.                      calculating contractor payments to the Government. The        7
    report contained five recommendations; all have been         Opportunities for Savings Exist Through
    reported as implemented.                                     Energy Conservation
    The Audit Resolution Division advised that they are
    awaiting additional supporting documentation from the        Period First Reported: October 1, 1983 to March 31, 1984
    region prior to closing the audit.                           Two OIG reviews identified potential annual savings of
                                                                 $477,000, mostly available through simple modifica-
                                                                 tions to equipment and operating procedures at three
                                                                 Federal buildings. All of the recommendations in one
    More Improvements Needed in Lease                            report are implemented. The other report contained 16
    Award Procedures                                             recommendations; 10 are implemented.

    Period First Reported: October 1, 1984 to March 31, 1985     The six unimplemented recommendations generally in-
                                                                 volve specific actions to reduce energy consumption and
    This consolidated report identified significant problems     better manage energy costs. Implementation action was
    adversely affecting lease awards in spite of recent pro-     scheduled for completion as follows: two recommen-
    gram improvements implemented by PBS. The report             dations were due on July 15, 1984; three recommen-
    contained 20 recommendations; 16 are implemented.            dations were due on September 30,1985; and one rec-
    Two of the remaining four recommendations, which             ommendation was due on March 31, 1986. Extensions
    involve approval of negotiation objectives and price         have been granted to May 1, 1986 for all six recom-
    analysis processes, were scheduled for implementation        mendations.
    by September 1985. A series of extensions have been
    granted and completion is now scheduled for July 1986
    and September 1986, respectively.                            Fire and Life Safety Systems
    Implementation dates for the other two recommenda-           Period First Reported: October 1, 1983 to March 31, 1984
    tions, which involve the revision of position standards
    and the development of automated solicitations, have         A series of seven OIG reviews identified deficiencies in
    been renegotiated from December 1985 and January             fire and life safety systems in GSA-controlled space.
    1986 to June 1986 and September 1987, respectively.          Two reports were fully implemented as of March 31,
                                                                 1986; one report, as previously reported, contains a rec-
                                                                 ommendation that is not being implemented in accord-
                                                                 ance with the established milestone. The remaining 4
    Excessive Energy Consumption                                 reports contained 14 recommendations; 9 are imple-
                                                                 mented.
    Period First Reported: April I, 1984 to September 30, 1984   Implementation of the other five recommendations is
    This review of the heating and cooling operations at a       generally proceeding in accordance with the action plans,
    Federal office building identified an estimated $203,000     although delays have been experienced and revised im-
    in wasted energy annually. The report contained ten          plementation dates have been granted. Full implemen-
    recommendations; nine are implemented.                       tation is now scheduled for various dates between May
                                                                 1986 and June 1987.
    The remaining recommendation involves restoration of
    the elevator control program. The recommendation was
    originally scheduled for completion by October 1, 1984.
    A series of extensions have been granted and comple-         Implementation of the Public Buildings
    tion is now scheduled for August 30, 1986.                   Cooperative Use Act
                                                                 Period First Reported: October L 1982 to March 31, 1983
                                                                 Our review disclosed a number of problems associated
    Fire and Life Safety Systems                                 with GSA's implementation of the Public Buildings Co-
                                                                 operative Use Act of 1976. The report contained 18 rec-
    Period First Reported: April 1, 1984 to September 30, 1984
                                                                 ommendations; 15 are implemented.
    This consolidated report identified the need for GSA
                                                                 The remaining three recommendations involve: (1) de-
    action to ensure the proper functioning of fire and life
    safety systems in Federal buildings throughout the           velopment of policy on outleasing; (2) assignment of
                                                                 qualified experts on outleasing projects involving com-
    country. The report contained ten recommendations; six
                                                                 mercial malls; and (3) development of policy and pro-
    are implemented.
                                                                 cedures for outieasing of commercial malls. Recom-
    Three recommendations, which required action by the          mendation (1) was originally due for implementation
    regions, were originally due for completion between          in August 1983. The second and third recommendations
    October 1985 and January 1986. Extensions have been          were originally scheduled for completion in May and
    granted and all three are now due in February 1987.          September 1983, respectively. At least eight successive
    The other recommendation, requiring replacement of a         extensions have been granted on each recommendation.
    fire alarm system, is scheduled for implementation by        All three recommendations are now scheduled for com-
    November 1987.                                               pletion in June 1986.
8
SECTION III-FEDERAL SUPPLY SERVICE
The Federal Supply Service (FSS) operates a Government-wide            based on evidence, developed by the Federal Bureau of
service and supply system that contracts for and distributes           Investigation and the OIG, indicating that a criminal
billions of dollars worth of supplies, materials, and services for     offense may have occurred in connection with the firm's
customer agencies each year. FSS also controls GSA's personal          attempt to obtain a Government contract.
property program. In the first half of Fiscal Year 1986, FSS
                                                                       Relative to other investigative activity, the OIG closed
obligated approximately $82.2 million in direct operating ex-
                                                                       1I0 cases this period involving FSS programs, opera-
pense appropriations. Estimated sales through the General Sup-
                                                                       tions, and employees. Most involved allegations of white
ply Fund during the same period were over $1.1 billion.
                                                                       collar crimes.
Consistent with this level of activity, the DIG expended some
42,626 direct staffhours pursuing 362 audit and investigative
assignments. These statistics reflect 30 percent of total DIG direct
staffhours and approximately 35 percent of all work assign-
                                                                       B. Significant Audits and
ments.                                                                    Investigations
                                                                       This section summarizes significant internal and postaward au-
A.. Overview of OIG                                                    dits and investigations dealing with FSS. Significant preaward
                                                                       contract audits are presented in Section C.
    Activity
The OIG's internal audit coverage of FSS this period                   $2.2 Minion Civil Settlement
focused on selected aspects of GSA's stock program. In
11 reports issued this period, we presented findings                   On January 30, 1986, a medical supply contractor en-
relative to procurement practices, inventory manage-                   tered into a settlement agreement with the Government
ment, quality assurance, and other FSS program areas.                  whereby it agreed to pay almost $2.2 million to settle
Two reports on contract awards and depot inventories                   potential civil fraud issues. The Government alleged
were especially noteworthy:                                            that the firm had submitted false and misleading data
                                                                       to GSA and Veterans Administration contracting offi-
  .. Evaluation of open FSS contracts disclosed that                   cials and, as a consequence, had secured inflated prices
     firms awarded contracts despite negative preaward                 from Federal purchasers.
     surveys experienced performance difficulties four
     times more frequently than other GSA contractors.                 The allegations first arose during a GSA OIG posta ward
     We concluded that weaknesses in award practices                   audit. Subsequent OIG investigation resulted in a crim-
     might be enabling marginally responsible firms to                 inal referral to the U.S. Attorney, which was declined,
     obtain GSA contracts.                                             and a civil referral to the Department of Justice.
  .. Analysis of inventory management practices found                  Under the terms of the final settlement agreement, the
     that $9.2 million of on-hand long supply inventory                contractor paid $1 million to the Government on Feb-
     was excess, resulting in needless storage costs. We               ruary 14, 1986. The remaining $1.2 million is payable
     attributed the problem to the absence of procedures               in four equal installments of $287,500, plus eight per-
     prescribing specific removal actions.                             cent annual interest on the unpaid balance. Approxi-
                                                                       mately $800,000 of the $2.2 million recovery represents
FSS is in the process of developing/implementing cor-                  reimbursement for purchases made under GSA con-
rective actions in response to both audits. Notably, GSA's             tracts.
Administrator, in conjunction with the Commissioner,
FSS, directed that a program be developed to strengthen
contract award procedures and improve quality assur-                   Contract Award Procedures
ance.
OIG contract audit coverage of FSS emphasized pre-                     GSA contracting officers (COs) must determine that a
award reviews of multiple award schedule contracts. In                 contractor is responsible, Le., qualified to fulfill con-
61 contract audit reports issued this period, we rec-                  tractual conditions, prior to awarding a contract. Such
ommended $2 1.8 million in cost avoidances and almost                  determinations are normally based on preaward surveys
$2 milJion in cost recoveries.                                         performed by GSA's Contract Management Division
                                                                       (CMD) at the CO's request. COs can, however, override
Joint OIG audit and investigative work resulted in three               a survey recommending no award, if the decision is
civil fraud settlements, valued at almost $4.4 million,                properly documented and CMD personnel are advised.
with FSS contractors. All of the settlements stemmed                   Usually these overrides occur because the contractor has
from the OIG's disclosure that incomplete and inaccu-                  taken action to correct the deficiencies noted in the pre-
rate pricing data had been submitted to GSA for ne-                    award survey.
gotiation purposes.
                                                                       The OIG examined 46 contracts awarded despite a no
Notably, an administrative referral from the OIG re-                   award recommendation by CMD. We found that all 46
sulted in the suspension of a major supplier of office                 awards were properly documented, but that COs did
furniture and the firm's president. The suspension is                  not always advise CMD of award decisions. The review             9
     also disclosed that the 46 firms experienced perform-           of both storage space and holding costs. The OIG there-
     ance difficulties four times more frequently than other         fore evaluated FSS poliCies and procedures for identi-
     GSA contractors. Such difficulties included delinquent          fying items in long supply and removing them from the
     deliveries and quality deficient supplies and services.         depot system inventory.
     Since cas must award the contract if the firm has cor-          The review found that the on-hand long supply inven-
     rected the deficiencies, the auditors concluded that co-        tory was valued at $36.5 million, of which $9.2 million
     ordination between cas and CMD was essential. In                or 25 percent were excess items. The excess included
     their opinion, some awards to marginally responsible            inactive and slow-moving items as well as stores of
     firms might have been prevented if CMD had been aware           items exceeding customer requirements. We concluded
     of the decision to override.                                    that more aggressive disposal of excess inventory could
                                                                     reduce storage costs by approximately $200,000.
     In our January 23, 1986 report, the OIG offered six
     recommendations to correct these and other deficien-            In our January 30, 1986 report, we recommended that
     cies. Some of the more significant were that the Com-           the Commissioner, FSS, develop:
     missioner, FSS, ensure that:
                                                                       fit   More definitive procedures for identifying and re-
       fit   COs furnish justification for overriding pre award              moving specific classes of items from the long sup-
             survey recommendations to the cognizant CMD.                    ply inventory.
       fit   CMDs render no final determinations of respon-            fit   Systematic monitoring procedures and specific
             sibility until completing a review of the prospective           follow-up actions to assure the prompt removal of
             contractor's previous contract performance.                     excess items.
       fit   cas incorporate contractor commitments to correct       The Commissioner submitted responsive action plans
             preaward survey failures into the contract, stress-     for implementing the report's recommendations. Res-
             ing that commitments not sustained through the          olution was achieved on March 31, 1986.
             life of the contract are cause for termination.
     The Commissioner generally concurred with the report
     recommendations and we are awaiting formal action               $700,000 Civil Settlement
     plans for their implementation. In the meantime, GSA's          On December 16, 1985, a laboratory equipment supply
     Administrator, in cooperation with the Commissioner,            firm agreed to pay the Government $700,000 to settle
     FSS, has directed development of a program for cor-             potential civil fraud issues. The full amount was re-
     recting these deficiencies and improving GSA's quality          funded to the Government on December 23, 1985.
     assurance program.
                                                                     Joint OIG audit and investigative effort, aided by the
                                                                     issuance of an OIG subpoena, disclosed that the firm
     $1.5 Million Civil Settlement                                   supplied incomplete and inaC<..urate pricing data to GSA.
                                                                     These data were relied upon by GSA in negotiating
     On March 12, 1986, a firm agreed to pay the Govern-             three contracts between 1979 and 1982. Approximate
     ment $1.5 million to settle civil charges that it violated      sales under the contracts totaled $3.3 million.
     the False Claims Act when negotiating for GSA con-
     tracts. The firm, a supplier of dishwashing products,           The matter was referred to the Department of Justice,
     has already refunded $500,000 to the Government. The            which declined criminal prosecution, but accepted the
     remaining $1 million, plus interest, is to be paid in two       case for civil litigation. The settlement agreement was
     equal installments due within 12 and 24 months, re-             negotiated by representatives of the Department of Jus-
     spectively.                                                     tice Civil Division and the GSA OIG.
     Joint OIG audit and investigation determined that the
     Hm1 submitted false, misleading, and/or incomplete data
     in its price proposals to GSA. FSS contracting officers
                                                                     $137,000 Recovered From Supplier
     relied upon these data in negotiating five contracts for        On February 13, 1986, FSS negotiated the recovery of
     dishwashing products between 1979 and 1983.                     $137,000 from a GSA hospital supply contractor. The
     The civil case alleged that Federal agencies were over-         full amount has already been paid to the Government.
     charged up to 20 percent for contract items due to the          The recovery followed a joint DIG audit and investi-
     inaccurate discount and pricing data. The Department            gative effort finding that the discount data in the firm's
     of Justice Civil Division, aided by the GSA OIG, han-           price proposal were not current, accurate, and complete.
     dled the negotiations leading to the settlement agree-          Relying upon these data, GSA negotiated a contract that
     ment.                                                           failed to give the Government discounts at least equal
     The OIG is currently investigating potential criminal           to those of the firm's best commercial customers. FSS
     violations in connection with this matter. Suspension           negotiated the recovery after criminal and civil referrals
     or debarment action may also be pursued.                        were declined.


     Excessive Inventory Storage Costs                               Office Furniture Firm Suspended
     Long supply, which basically represents inventory ex-           On March 27, 1986, GSA suspended an office furniture
10   ceeding established stocking levels, can be costly in terms     firm and its president from Federal contracting and Fed-
erally-approved subcontracting for an indefinite period           $4.5 Million Avoidance Through
of time, i.e., until criminal charges are resolved. The
action was taken in accordance with the suspension
                                                                  Preaward Audit
procedures set forth in the Federal Acquisition Regu-             Based on a request from the Regional Administrator,
lation and the GSA Acquisition Regulation.                        the OIG audited a proposal for damages allegedly aris-
The suspension was based upon an OIG administrative               ing from Government breach of contract. The audit
referral resulting from an investigation conducted by             questioned the $4.5 million claimed by the contractor
the Federal Bureau of Investigation in conjunction with           in its entirety.
the OIG. The referral contained evidence supporting               The February 12, 1986 audit report advised the Regional
allegations that the firm's president committed a crim-           Administrator that the $1.5 million claimed for lost prof-
inal offense in attempting to obtain a Government con-            its was either unsupported, outside the scope of the
tract. Specifically, he is charged with bribing a GSA             contract, or erroneously computed. In addition, the aud-
employee in order to obtain confidential bid informa-             itors advised that the contractor computed the $3 mil-
tion. He was arrested on March 19, 1986 after paying              lion in claimed compensation by doubling the amount
a $5,000 bribe.                                                   claimed for lost profits.
The firm is one of the Government's largest suppliers             The GSA contracting officer notified the contractor in a
of office furniture.                                              February 13, 1986 final decision that the firm was not
                                                                  entitled to any of the claimed amount.

c.     Significant Preaward
       Audits
                                                                  D.. Statistical Highlights
The GIG's preaward audit program provides information to
contracting officers for use in negotiating contracts. The pre-   The following table compares OIG activity and accom-
decisional, advisory nature of preaward audits distinguishes      plishments within FSS to the overall GSA totals for the
them from other audits.                                           period.


                                         Activity                                        FSS              All GSA

     Audit Reports Issued ............................................ .     72                            335
     Recommended Cost Avoidance .................................. . $21,832,657                       $80,585,800
     Recommended Cost Recovery ................................... . $1,973,064                         $5,702,860
     Management Commitments to Avoid Costs ........................ . $8,648,524                       $62,364,775
     Management Commitments to Recover Funds ..................... . $3,932,639                         $5,673,772
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ........................... .       68%                             78%
     Percentage of Recommended Cost
       Recovery Agreed to by Management. ........................... .       85%                             74%
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ...... .     1                               3
     Implementation Reviews Finding Unimplemented Recommendations ..          2                               3
     New Investigative Cases ........................................ .      86                             216
     Criminal Referrals (Subjects) ..................................... .   57                              98
     Civil Referrals (Subjects) ........................................ .    7                               8
     Administrative Referrals (Subjects) ................................ . 118                             293
     Suspension/Debarment Referrals (Subjects) ....................... .     26                              80
     Indictments/Informations/Complaints .............................. .    13                              31
     Successful Criminal Prosecutions ................................. .     7                              17
     Civil Settlements. .   ... ....................................... .     2                               7




                                                                                                                               11
     E. Significant Audits From                                          result in improper and undetected changes to master
                                                                         files, unauthorized entry to the system, and inadequate
        Prior Reports                                                    inventory control. The report contained eight recom-
                                                                         mendations; five are implemented.
     According to GSA's audit resolution system, the Audit Reso-         The remaining three recommendations require:
     lution Division, Office of Administration, is responsible for en-   (1) preparation and approval of a systems development
     suring implementation of resolved audit recommendations.            plan; (2) development and implementation of physical
     Therefore, that office furnished the status information on im-      security procedures; and (3) finalization of system doc-
     plementation presented herein.                                      umentation. The first recommendation was due for im-
     Three significant audits from prior Reports to the Congress are     plementation by November 1985; an extension to May
     unimplemented. All are being implemented in accordance with         1986 has been granted.
     established milestones.                                             Full implementation of the remaining two recommen-
                                                                         dations is contingent upon issuance of a handbook. Al-
     Procedures Needed at Customer                                       though originally scheduled for issuance in September
                                                                         1985 (dependent upon the availability of printing funds),
     Supply Centers                                                      as of March 31, 1986 only nine chapters had been is-
                                                                         sued. The remaining seven chapters are scheduled for
     Period First Reported: April 1, 1985 to September 30, 1985
                                                                         issuance by June 1986.
     Two separate OIG reviews of customer supply centers
     identified common operational problems, mainly at-
     tributable to inadequate operational guidance from
     Central Office FSS. All of the recommendations in one
     report are implemented; 10 of the 11 recommendations
     in the second report are implemented.
     The remaining recommendation in the second report,                  Quality Assurance
     involving the removal of a large mound of dirt from a
     parking lot, was originally scheduled for completion by             Period First Reported: April 1, 1984 to September 30, 1984
     March 31, 1986. The action plan has been renegotiated
     to June 30, 1986.                                                   Two OIG reviews identified defective material entering
                                                                         the supply system without detection by contractor qual-
                                                                         ity control systems or FS S plant surveillances. All of the
     Stronger Internal Controls Needed                                   recommendations in one report are implemented; one
                                                                         of the two recommendations in the second report is
     in Customer Supply Center                                           implemented.
     Automated System
                                                                         The other recommendation in the second report, in-
     Period First Reported: October L 1984 to March 31, 1985             volving improvements in surveillance inspections, was
                                                                         originally scheduled for completion by September 30,
     This review of the Customer Supply Center automated                 1984. The action plan date has been renegotiated twice;
     system identified internal control weaknesses that could            completion is now scheduled for September 30, 1986.




12
SECTION IV-INFORMATION RESOU CES
MANAGEMENT SERVICE
The Information Resources Management Service (IRMS) coor-           employee later pled guilty to a charge of making false
dinates and directs a comprehensive Government-wide program         statements and was sentenced.
for managing and procuring automated data processing (ADP)
and telecommunications equipment and services. In the first
 half of Fiscal Year 1986, IRMS obligated over $13.6 million in
 direct operating expense appropriations. Estimated sales through
 the Federal Telecommunications Fund and the ADP Fund dur-
                                                                    B. Significant Audits and
 ing the same period exceeded $449 million.                            Investigations
Collectively, the DIG expended some 17,935 direct staffhours
pursuing 92 audit and investigative assignments. These figures      This section summarizes significant internal and postaward au-
reflect 12 percent of total OIG direct stajJhours and some 9        dits and investigations dealing with IRMS operations. Signif-
percent of total work assignments.                                  icant preaward contract audits are presented in Section C.



                                                                    Telecommunication Systems
A. Overview of OIG                                                  Management
   Activity                                                         GSA directs and coordinates the Federal telecommun-
The OIG, recognizing the growing importance of the                  ication program. In addition to providing common use
oversight role exercised by IRMS, emphasized internal               telephone services through the Federal Telecommuni-
reviews assessing the effectiveness of IRMS regulatory              cation System, GSA approves the procurement and
activities. Our reviews disclosed that GSA must en-                 monitors the operations of individual telecommunica-
hance its efforts if Government telecommunication needs             tion systems managed by other civilian agencies. Last
are to be met as economically as possible.                          year, Federal agencies spent about $1.9 billion to de-
                                                                    velop and maintain some 1,700 systems.
Notably, two internal reviews disclosed that:
                                                                    The OIG evaluated GSA's oversight role relative to 262
  • Opportunities for shared systems and associated                 of these telecommunication systems, each costing be-
    savings may have been lost because IRMS had not                 tween $3,000 and $1.7 million each year. The review
    established a complete inventory of civilian agen-              found that IRMS had not established a complete in-
    cies' telecommunication systems. Moreover, in in-               ventory of existing telecommunication systems or files
    stances where procurement authority had been del-               of active authorizations. Consequently, in reviewing
    egated to agencies, IRMS provided insufficient                  procurement requests, GSA was not in a position to
    technical guidance on procurement methods. IRMS                 determine whether one agency's requirements could be
    is working to correct both of these problems.                   satisfied through sharing another agency's system and
                                                                    opportunities for savings through system consolida-
  • IRMS needed to impose invoice verification re-
                                                                    tions may have been lost.
    quirements in order to assure that agencies validate
    charges for teleprocessing services. IRMS is now                The review also found that GSA authorized agency pro-
    acting to require agencies to certify that billed               curements without complete procurement information
    charges have been verified.                                     and without analyzing life cycle costs. This finding, cou-
                                                                    pled with the fact that IRMS did not provide agency
We also issued 39 contract audit reports this period,               telecommunication managers sufficient technical guid-
recommending cost avoidances of almost $14 million                  ance on procurement methods, means that GSA lacks
and cost recoveries of nearly $3 million. Notably, lRMS             assurance that these systems were procured as econom-
successfully negotiated $9.2 million in pricing conces-             ically as possible.
sions on a single ADP equipment and software contract               In the December 30, 1985 report, we offered 12 rec-
based on our audit findings.                                        ommendations to the Commissioner, IRMS, to correct
Joint OIG audit and investigative effort resulted in a              these and other deficiencies. Some of the more signif-
$615,000 civil fraud settlement with an IRMS contrac-               icant recommendations included:
tor. The firm, which supplied computer software, paid
                                                                      • Require all agencies to submit information needed
the full amount to the Government to settle allegations                 to establish a complete inventory of Federal tele-
of price reduction/defective pricing violations.                        communication systems.
OIG investigators also completed II cases this period
                                                                      • Maintain all active authorizations in working files
involving IRMS programs, operations, and employees;                     until superseded, cancelled, or expired.
most involved allegations of white collar crimes. One
of these cases identified illegal use of a telephone credit           • Devise checklists to ensure all information is re-
card by a former Government employee. The former                        ceived from requesting agencies, including life cycle        1.
         cost evaluations, prior to authorizing procure-          The Commissioner proVided responsive action plans for
         ments.                                                   implementing the report recommendations. Resolution
                                                                  was achieved on March 31, 1986.
       • Develop a method, such as an electronic bulletin
         board, to keep managers informed of current reg-
         ulations, guidance, and available training; and de-      Fraudulent Use of a Telephone
         velop and issue technical manuals.
                                                                  Credit Card
     The Commissioner submitted responsive action plans
     for implementing the report recommendations. Reso-           Based on a referral from GSA management, the OIG
     lution was achieved on March 31, 1986.                       investigated allegations involving the illegal use of a
                                                                  telephone credit card. The telephone company esti-
                                                                  mated that the card, which was issued to the Depart-
     $615,000 Civil Settlement                                    ment of Agriculture's Federal Crop Insurance Corpo-
                                                                  ration, had been used to charge some $10,000 in
     On February 14, 1986, a firm agreed to pay the Gov-          fraudulent toll calls.
     ernment $615,000 to settle alleged civil fraud claims.       The investigation disclosed that a former Department
     The firm, a supplier of computer software, refunded the      of Agriculture employee was using the credit card num-
     full amount to the Government at the time of settlement.     ber. He subsequently pled guilty to a one-count infor-
     Joint OIG audit and investigation disclosed that the         mation charging him with making false statements in
     firm did not provide complete, current, and accurate         connection with $4,200 in charges over a I-year period.
     discount data when negotiating for the GSA contracts         On January 9, 1986, he was fined $500, ordered to pay
     it held between 1980 and 1984. During the same period,       $565 in restitution to the phone company, and placed
     the firm sold contract items to its commercial customers     on probation for 3 years.
     at discounts greater than those offered to GSA, thereby
     violating the price reduction/defective pricing clauses
     in its GSA contracts.
     The matter was referred to the U. S. Attorney for criminal
                                                                  c.     Significant Preaward
     prosecution, but the referral was declined. The U.S. At-            Audits
     torney pursued the matter civilly, resulting in this set-
     tlement agreement.                                           The OIG's preaward audit program provides information to
                                                                  contracting officers for use in negotiating contracts. The pre-
                                                                  decisional, advisory nature of preaward audits distinguishes
     Teleprocessing Services Program                              them from other audits.

     The GSA Teleprocessing Services Program (TSP) main-
     tains responsibility for procuring commercial data proc-     Management Commitment to Avoid
     essing services for Government agencies. Following one       $9.2 Million
     TSP contractor's voluntary disclosure that it billed and
     was paid over $424,000 for services not provided, the        On November I, 1985, GSA management committed
     OIG initiated an evaluation of the methods GSA and           itself to avoid expenditures of $9.2 million after suc-
     customer agencies use to ensure the accuracy of billings.    cessfully negotiating pricing concessions in that amount
                                                                  from an ADP firm. The commitment stemmed from an
     The review found that customer agency invoice verifi-
                                                                  OIG audit of the firm's $285 million pricing proposal
     cation procedures were inadequate and that IRMS
                                                                  for the purchase and rental of ADP equipment and soft-
     needed to strengthen its oversight actions in this regard.
                                                                  ware. The audit concluded that the discount and sales
     Notably, these were essentially the same findings dis-
                                                                  data, while acceptable for negotiation purposes, were
     closed by the General Accounting Office (GAO) in a
                                                                  inadequate in certain respects.
     1982 review of this area. At that time, GAO recom-
     mended that GSA issue detailed instructions providing        Specifically, the August 20, 1985 audit report advised
     for standard user agency verification practices. The OIG     the contracting officer that the proposal did not include
     found that resultant GSA actions did not rectify the         all of the pricing concessions offered to the firm's non-
     problems. In fact, some GSA actions have actually served     GSA customers. Moreover, it advised that the firm
     to weaken the verification process.                          granted these customers discounts/concessions exceed-
                                                                  ing the best discounts/concessions offered to GSA, Un-
     In the December 30, 1985 final report, we recommended
                                                                  der the terms of such a contract, GSA is entitled to
     that the Commissioner, IRMS:
                                                                  discounts at least equal to the best commercial customer
       • Require user agencies to provide GSA periodic            in the same category. Accordingly, the auditors rec-
         certification of the accuracy of TSP invoices.           ommended a cost avoidance of $10 million,
       • Assure that major users obtain session/transaction
         registers on a periodic basis to perform invoice ver-
         ification.
                                                                  D. Statistical Highlights
       • Develop written procedures for following up with         The following table compares DIG activity and accom-
         user agencies when adequate invoice verification         plishments within IRMS to the overall GSA totals for
14       has not occurred.                                        the period.
                                         Activity                                        IRMS              All GSA

      AudH Reports Issued ............................................ .       44                           335
      Recommended Cost Avoidance .................................. . $13,853,984                       $80,585,800
      Recommended Cost Recovery ................................... . $2,716,437                         $5,702,860
      Management Commitments to Avoid Costs ........................ . $28,545,798                      $62,364,775
      Management Commitments to Recover Funds ..................... .        $726,770                    $5,673,772
      Percentage of Recommended Cost
        Avoidance Agreed to by Management ........................... .        92%                            78%
      Percentage of Recommended Cost
        Recovery Agreed to by Management ............................ .        41%                            74%
      Unresolved Audits Older Than 6 Months (Excluding Preawards) ...... .      1                              3
      Implementation Reviews Finding Unimplemented Recommendations "                                           3
      New Investigative Cases ........................................ .        9                            216
      Criminal Referrals (Subjects) ..................................... .     3                             98
      Civil Referrals (Subjects) ........................................ .                                    8
      Administrative Referrals (Subjects) ................................ .    6                            293
      Suspension/Debarment Referrals (Subjects) ....................... .       4                             80
      Indictments/Informations/Complaints .............................. .      1                             31
      Successful Criminal Prosecutions ................................. .      1                             17
      Civil Settlements ................................................ .      1                              7




E.. Significant Audits From                                       Inactive Telephone Lines
    Prior Reports                                                 Period First Reported: October 1, 1984 to March 31, 1985
                                                                  This regional review of the Telephone Inventory Ac-
According to GSA's audit resolution system, the OIG is respon-    counting System (TIAS) disclosed inaccuracies in the
sible for ensuring resolution of audit recommendations, while     telephone main line inventory requiring immediate COf-
the Audit Resolution Division, Office of Administration, is re-   rective action. Accordingly, we made four recommen-
sponsible for ensuring implementation of resolved audit rec-      dations to correct the identified deficiencies; three are
ommendations. That office therefore furnished the status in-      implemented.
formation on implementation presented herein.
                                                                  The remaining recommendation requires that IRMS con-
Three IRMS audits highlighted in prior Reports to the Congress    duct inventory reviews in other GSA regions, wherever
are unimplemented. All three are being implemented in ac-         possible and feasible. The recommendation was originally
cordance with established milestones.                             scheduled for completion by September 30, 1985. Full
                                                                  implementation is now scheduled for August 31, 1986.


Contract Services Program                                         Improvements Needed in Computer
                                                                  Security Program
Period First Reported: April 1, 1985 to September 30, 1985
                                                                  Period First Reported: October 1, 1983 to March 31, 1984
This July 10, 1985 regional review of the Contract Serv-
ices Program, which procures ADP technical support                This March 30, 1983 review found that GSA computer
services for Federal agencies, disclosed serious contract         sys[ems are highly susceptible to loss through fraud,
administration, task order procurement, and personnel             misuse, and disaster, especially fire. Accordingly, we
management problems. The report contained six rec-                made 20 recommendations for corrective action; 19 are
ommendations; five are implemented.                               implemented.
The remaining recommendation, which involves re-                  Action has been initiated to implement the last rec-
ducing the size of the Technical Services Branch 1O the           ommendation, involving inclusion of concise security
level necessary for mission accomplishment, was orig-             requirements in all contractual agreements for ADP
inally scheduled for completion in January 1986. An               services. Final implementation action is scheduled for
extension has been granted to April 30, 1986.                     completion by October 31, 1986.




                                                                                                                              15
     SECTION V-OTHER GSA COVERAGE
     Other GSA services and staff offices comprised the focus for the   FEMA defines the assistance required and the amount
      remainder of the OIG's efforts this period. The OIG devoted       of funds available. GSA ultimately bills FEMA and is
     approximately 12,548 direct staffhours pursuing 75 audit and       reimbursed.
     investigative assignments within these other areas of GSA. These
     figures reflect 9 percent of total OIG direct staffhours and ap-   This period, the OIG reviewed GSA billings in three
     proximately 7 percent of all work assignments.                     regions. The reviews disclosed that, while the billings
                                                                        were documented and represented expenses incurred
                                                                        in support of FEMA activities, internal controls over
                                                                        RWAs were inadequate. These internal control weak-
     A. Overview of OIG                                                 nesses resulted in: expenditures exceeding levels au-
                                                                        thorized by FEMA; interest payments due to late pay-
        Activity                                                        ment of vendor invoices; and costs not charged to the
                                                                        proper RWA.
     In 20 internal reports, the OIG presented findings aris-           In three reports issued October 29, November 14, and
     ing from reviews of the Federal Property Resources                 December 6, 1985, the OIG offered recommendations
     Service, the Office of the Comptroller, the Office of              to correct these and other deficiencies. Our recom-
     Administration, and other GSA organizations. These                 mended actions included preparation of operating in-
     reviews assessed such diverse topics as imp rest funds,            structions to ensure that:
     consultant contracts, contract clearance functions, Gov-
     ernment-owned vehicle utilization, and reimbursable                  • Expenditure ceilings are not exceeded.
     billings to the Federal Emergency Management Agency                  • Vouchers are promptly processed to avoid interest
     (FEMA). The OIG also provided extensive technical                      penalties.
     advice and assistance relative to the implementation of
     the Federal Managers' Financial Integrity Act, espe-                 • Lease rental costs are charged to the appropriate
     cially on the reliability of in-house programs for testing             RWA.
     internal controls.                                                 The Regional Administrators generally concurred with
     Four internal reviews yielded especially noteworthy re-            the recommendations. We are awaiting action plans for
     sults:                                                             their implementation.

        • Three regional reviews of GSA's billings to FEMA
          found internal control weaknesses leading to ex-              Funding of Construction Project
          penditures exceeding FEMA-authorized levels; late
          payment of vendor invoices; and costs not charged             While reviewing a preaward audit request, the OIG
          to the proper FEMA account. GSA is now devel-                 noted that the proposed construction project-assem-
          oping operating instructions to rectify the prob-             bling a prefabricated structure on leased land-was to
          lems.                                                         be funded under Federal Buildings Fund Budget Ac-
                                                                        tivity 61. Recognizing that Congress authorized use of
        • A review of the proposed funding method for a                 these funds only for (1) operating Government-owned
          construction project revealed that the expenditure            facilities under GSA jurisdiction, and (2) providing
          did not fall within the uses authorized by the Con-           building services in leased space, we initiated a review
          gress. GSA deferred contract award and is now                 to determine the propriety of the proposed funding
          exploring alternative funding.                                method.
     The OIG also completed 23 investigations involving the             The review found no support for the use of $3 million
     personnel, programs, and operations of these other GSA             of Budget Activity 61 funds for this project. Conse-
     areas.                                                             quently, in the October 24, 1985 final report, we rec-
                                                                        ommended that the project not be funded from Budget
                                                                        Activity 61. We also recommended that the contract
     B. Significant Audits                                              award be deferred until funds from an appropriate
                                                                        budget activity were available.
     This section summarizes significant internal audits involving      The Regional Administrator agreed with the recom-
     the programs and operations of the remailling GSA services and     mendations and deferred contract award. He subse-
     staff offices.                                                     quently submitted a responsive action plan and reso-
                                                                        lution was achieved on February 18, 1986.
     GSA Billings to FEMA
     Public Law 93-288, the Disaster Relief Act of 1974, re-
     quires GSA to provide administrative and logistical
                                                                        c.    Statistical Highlights
     support to FEMA whenever the President declares a                  The following table compares OIG activity and accom-
     major disaster or emergency. GSA provides this support             plishments in other GSA areas to the overall GSA totals
16   under a reimbursable work authorization (RWA) once                 for the period.
                                         Activity                                     Other GSA              All GSA

      Audit Reports Issued ............................................ .                 21                  335
      Recommended Cost Avoidance .................................. .                 $2,767,110          $80,585,800
      Recommended Cost Recovery ................................... .                                      $5,702,860
      Management Commitments to Avoid Costs ........................ .                                    $62,364,775
      Management Commitments to Recover Funds ..................... .                    $45,000           $5,673,772
      Percentage of Recommended Cost
        Avoidance Agreed to by Management ........................... .                     0%                  78%
      Percentage of Recommended Cost
        Recovery Agreed to by Management. ........................... .                    12%                 74%
      Unresolved Audits Older Than 6 Months (Excluding Preawards) ...... .                                      3
      Implementation Reviews Finding Unimplemented Recommendations ..                                           3
      New Investigative Cases ........................................ .                   17                 216
      Criminal Referrals (Subjects) ..................................... .                 3                  98
      Civil Referrals (Subjects) ........................................ .                                     8
      Administrative Referrals (Subjects) ................................ .               21                 293
      Suspension/Debarment Referrals (Subjects) ....................... .                                      80
      Indictments/Informations/Complaints .............................. .                  3                  31
      Successful Criminal Prosecutions ................................. .                  2                  17
      Civil Settlements ................................................ .                                      7



D. Significant Audits From                                        sponsible for ensuring implementation of resolved audit rec-
                                                                  ommendations. That office therefore furnished the status in-
   Prior Reports                                                  formation on implementation presented herein.

According to GSA's audit resolution system, the OIG is respon-    With regard to GSA services and staff offices other than PBS,
sible for ensuring resolution of audit recommendations, while     FSS, and IRMS, no significant audits from prior Reports to the
the Audit Resolution Division, Office of Administration, is re-   Congress are unimplemented.




                                                                                                                                   l~
     SECTION VI-STATISTICAL SUMMARY
     OF OIG ACCOMPLISHMENTS
     The previous sections of this report presented OlG activity and           Based on audit reports issued in this and prior periods,
     accomplishments by GSA service and staff office. In the pages             management committed itself to use $62,369,564 more
     that follow, overall OIG accomplishments are comprehensively              efficiently and to recover $5,673,772. This latter figure
     reported. To facilitate cross-referencing, the GSA organizational         includes $3,752,000 resulting from efforts that involved
     orientation is maintained in these summary statistics. However,           OIG audit, investigative, and legal collaboration.
     there is not a one-to-one correspondence between the data re-
                                                                               The OIG opened 216 investigative cases and closed 267.
     ported by GSA organization and the overall statistics, because
     a portion of our work involved non-GSA operations.                        We referred 62 cases (98 subjects) for criminal prose-
                                                                               cution, 6 cases (8 subjects) for civil litigation, and 12
                                                                               cases for further investigation by other Federal or State
                                                                               agencies. Based on these and prior referrals, 22 cases
                                                                               (30 subjects) were accepted for criminal prosecution
     A.. OIG Accomplishments                                                   and 3 cases (5 subjects) were accepted for civil litigation.
     During the reporting period, the OIG issued 336 re-                       Criminal cases originating from OIG referrals resulted
     ports, including 14 audits performed for the OIG by                       in 28 indictments/informations/complaints and 17 suc-
     another agency. These reports contained financial rec-                    cessful prosecutions. Civilly, OIG referrals resulted in
     ommendations totaling $86,288,660, including                              3 civil complaints. Settlements, which were reached in
     $80,585,800 in recommendations for more efficient use                     5 cases (7 subjects), resulted in determinations that
     of resources (cost avoidance) and $5,702,860 in rec-                      $3,685,767 is owed the Government. Through investi-
     ommendations for the recovery of funds.                                   gations, we also identified for recovery money/property


                                               Table 1.       Summary of OIG Audits
                                                                  Percentage              Recommended             Recommended
                       GSA                      Reports            of Total                   Cost                    Cost
                     Program                    Issued              Audits                  Avoidance               Recovery

           PBS
           -Internal ...............              101                                         $16,517,107              $ 433,080
           -Contract ..............                97                                          25,614,942                 580,279
                                                  198                    59                   $42,132,049              $1,013,359

           FSS
           -Internal ...............               11                                         $                        $
           -Contract ..............                61                                          21,832,657               1,973,064
                                                   72                    22                   $21,832,657              $1,973,064

           IRMS
           -Internal ...............                5                                         $                        $   90,432
           -Contract ..............                39                                          13,853,984               2,626,005
                                                   44                    13                   $13,853,984              $2,716,437

           Other GSA
           -Internal ...............               20                                         $ 2,767,110              $
           -Contract ..............                 1
                                                   21                     6                   $ 2,767,110              $

           Non-GSA
           -Internal ...............                                                          $                        $
           -Contract ..............
                                                                                              $                        $

           TOTAL ..................               336                    100                  $80,585,800              $5,702,860
           TOTAL
           COSTS
           RECOMMENDED               $86,288,660
18
worth $167,111. These monetary figures include                                    recommending a total cost avoidance of $2,726,976,
$3,752,000 also reported under management commit-                                 which were performed for the GSA OIG by the Defense
ments to recover funds, since they resulted from collab-                          Contract Audit Agency.
orative efforts involving OIG auditors, investigators, and
attorneys.
We referred 199 cases to GSA management for admin-
istrative action. This total includes 24 case referrals (80                       2. Audit Reports Resolved
subjects) for suspension/debarment and 175 case refer-
rals (293 subjects) for other administrative actions. Based                       Table 2 summarizes the universe of audits to be resolved
on these and prior referrals, management debarred 31                              by the OIG and GSA management during this period,
contractors, suspended 25 contractors, reprimanded 24                             as well as the status of those audits as of March 31,
employees, suspended 20 employees, and terminated                                 1986. Forty-seven audits more than 6 months old were
14 employees.                                                                     unresolved as of March 31, 1986; but 44 of them were
The following subsection presents detailed information                            preaward audits, which are not subject to the 6-month
on these and other quantifiable accomplishments.                                  resolution requirement. Thus, only three audits were
                                                                                  actually overdue-a statistic that reflects creditably on
                                                                                  GSA's audit resolution efforts.
B. Summary Statistics                                                             It should be noted that Table 2 does not include: reports
                                                                                  issued to other agencies (l this period) and reports ex-
                                                                                  cluded from the resolution system because they pertain
1. Audit Reports Issued                                                           to ongoing investigations. As of March 31, 1986, 15
                                                                                  audits (9 issued this period, 6 issued in prior periods)
Table 1 summarizes OIG audit reports issued this period                           had been excluded from the resolution system for this
by GSA program area. The table includes 14 audits,                                reason.




                                                  Table 2.           Resolution of OIG Audits
                                                                                              Reports With               Total
                                                                                 No. of         Financial              Financial
                                                                                Reports     Recommendations        Recommendations

     Reports To Be Resolved as of 10/1/85
     -Less than 6 months old . . . . . . . . . . . . . . . . . . . .             156                103                    $ 53,659,937
     -More than 6 months old. . . . . . . . . . . . . . . . . . . .               58                  48                     18,055,054
     Reports Issued This Period. . . . . . . . . . . . . . . . . . .             326                168
                                                                                                    -
                                                                                                                             82,421,345
     TOTAL TO BE RESOLVED. . . . . . . . . . . . . . . . . . .                   540                319                    $154,136,336

     Reports Resolved
     -Issued prior periods . . . . . . . . . . . . . . . . . . . . . . .         167                113                    $ 56,796,914
     -Issued current period. . . . . . . . . . . . . . . . . . . . . .           219                101                      44,556,486
     TOTAL RESOLVED. . . . . . . . . . . . . . . . . . . . . . . . . .           386                214                    $101,353,400

     Unresolved as of 3/31/86
     -Less than 6 months old. . . . . . . . . . . . . . . . . . . .              107                  67                   $ 37,864,859
     -More than 6 months old
       -Preaward. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     44                  37                     14,899,990
       -Internal ................................                                  3                   1                         18,087
     TOTAL UNRESOLVED. . . . . . . . . . . . . . . . . . . . . . .               154                 105                   $ 52,782,936
     J. Resolution Decisions on
         Financial Recommendations                               In accordance with GSA Order ADM 2030.2A, reso-
                                                                 lution decisions on financial recommendations con-
     Table 3 provides detailed information on the 214 audits     tained in contract audit reports result in resolved cost
     involving financial recommendations of $10 1,3 53,400       avoidance or recovery. Management commitments oc-
     that are identified in Table 2 as being resolved this pe-   cur subsequently, at the time of contract settlement. For
     riod. Notably, $93,485,354 or approximately 92 percent      internal audits, management commitments occur at the
     was upheld in the audit resolution process.                 time of resolution.




                                  Table 3.     Resolution Decisions on OIG Audits
                                               Recommended         Resolved          Recommended          Resolved
                        GSA                        Cost              Cost                Cost               Cost
                      Program                    Avoidance         Avoidance           Recovery           Recovery

          PBS
          -Internal ....................         $14,975,163       $14,006,779         $ 717,858         $ 925,657
          -Contract ...................           31,198,832        27,789,917            704,999           595,570
                                                 $46,173,995       $41,796,696         $1,422,857        $1,521,227
          FSS
          -Internal ....................         $                 $                   $                 $
          -Contract ...................           12,865,115        10,831,174          2,834,615         3,737,020
                                                 $12,865,115       $10,831,174         $2,834,615        $3,737,020
          IRMS
          -Internal ....................         $                 $                   $                 $
          -Contract ...................           30,056,900        32,131,407          5,055,663         3,290,685
                                                 $30,056,900       $32,131,407         $5,055,663        $3,290,685
          Other GSA
          -Internal ....................         $ 2,767,110       $                   $                 $
          -Contract ...................              177,145           177,145
                                                 $ 2,944,255       $   177,145         $                 $

          TOTAL. ......................          $92,040,265       $84,936,422         $9,313,135        $8,548,932

          TOTAL
          RESOLVED
          COSTS          $93,485,354




20
4. Contract Audit Settlements
                                                                      commitments achieved in negotiations with contrac-
Table 4 compares contract audit recommendations re-                   tors. Overall, management commitments on GSA audits
solved in the audit resolution process with management                represented 83 percent of the resolved amounts.



                              Table 4.       Summary of Contract Audit Settlements
                                                                     Avoidance                        Recovery
                 GSA                       No. of              Costs       Management           Costs      Management
               Program                    Reports             Resolved     Commitment          Resolved    Commitment

     PBS
     -Prior ...................                 44       $14,436,149        $10,002,703        $                $
     -Current ................              -
                                                16         1,448,935          1,160,971            43,706            43,706
                                                60       $15,885,084        $11,163,674        $   43,706       $    43,706
     FSS
     -Prior ..................                  41        $ 5,468,200       $ 3,180,919        $4,243,789       $2,666,143
     -Current ...............               -
                                                12          5,318,239         5,467,605         1,266,496        1,266,496
                                                53        $10,786,439       $ 8,648,524        $5,510,285       $3,932,639
     IRMS
     -Prior ..................                  33        $29,899,125       $27,835,363        $ 695,841        $ 679,973
     -Current ...............                   12          1,033,874           710,435           46,797           46,797
                                                45        $30,932,999       $28,545,798        $ 742,638        $ 726,770
     Other GSA
     -Prior ..................                            $                 $                  $ 369,824        $    45,000
     -Current ...............
                                                          $                 $                  $ 369,824        $    45,000

     Subtotal-GSA ..........                 159          $57,604,522       $48,357,996        $6,666,453       $4,748,115

     Non-GSA
     -Prior ..................                            $       4,789     $      4,789       $                $
     -Current ...............

     Subtotal-Non-GSA ......                              $       4,789     $      4,789       $                $
     TOTAL ..................                160          $57,609,311       $48,362,785        $6,666,453       $4,748,115*

     TOTAL
     MANAGEMENT
     COMMITMENTS              $53,110,900*
     'Includes $3,752,000 also reported under Monetary Results.




Drawing upon the information presented in Tables 3                    Between October I, 1985 and March 31,1986, Agency
and 4, OIG audits involving GSA programs resulted in                  records show that $4,926,415 was recovered and de-
total management commitments to avoid $62,364,775                     posited in the Treasury.
and to recover $5,673,772. Adding the $4,789 from a
non-GSA audit, total management commitments to avoid
equaled $62,369,564.
                                                                     6. Audit Followup
                                                                      GSA Order ADM 2030.2A places primary responsibility
5. Recoveries                                                         for followup on the implementation of resolved audit
                                                                      recommendations with the Audit Followup Official. The
The General Accounting Office (GAO) recommended                       Audit Resolution Division, Office of Administration,
that OIG Reports to the Congress include data on actual               acts as staff to the Audit Followup Official in this func-
monetary recoveries, in addition to management com-                   tion.
mitment information. Although such a requirement has
not yet been instituted, the GSA OIG requested data                   The OIG performs its own independent reviews of im-
on actual audit recoveries from GSA's Audit Resolution                plementation actions on a test basis. This period, the
Division.                                                             OIG performed seven implementation reviews. Man-             2
     agement had successfully implemented the recommen-           7. Investigative Workload
     dations contained in four of these reviews. In the other
     three instances, recommendations were not being im-          Table 5 presents detailed information on investigative
     plemented in accordance with the action plans. Two of        workload by case category. The OIG opened 216 cases
     these audits involved FSS programs; the other involved       and closed 267 cases; only 8 of these cases were ad-
     PBS programs.                                                ministratively closed without referral.



                                            Table 5.     Investigative Workload
                             Case                             Cases Open      Cases         Cases       Cases Open
                            Category                            10/1/85       Opened        Closed        3/31/86

          White Collar Crimes .......................             258            93          118               233
          Other Crimes Involving GSA Operations .....              56            40           44                 52
          Contractor Suspension/Debarment ..........               28            26           21                 33
          Employee Misconduct .....................                56            41           49                 48
          Other ....................................               33            16           35               -
                                                                                                                 14
          TOTAL ...................................               431           216          267               380


     In addition to these cases, the OIG received and eval-       Table 6 distributes the 216 new investigative cases
     uated 172 complaints/allegations from sources other than     opened this period (Table 5) by case category and GSA
     the Hotline that involved GSA employees and pro-             program area. Notably, 43 percent of the cases opened
     grams. Based upon an analysis of these allegations, OIG      fell within the white collar crime category. Most of the
     investigations were not warranted.                           new cases (88 percent) involved PBS and FSS programs.



                              Table 6.      Distribution of Cases Opened This Period
                             Case                                                                               Other
                            Category                              PBS          FSS            IRMS              GSA

          White Collar Crimes ...................... .             42           39               6                6
          Other Crimes Involving GSA Operations .... .             17           20               2                1
          r.ontractor Suspension/Debarment ......... .             11           14                                1
          Employee Misconduct .................... .               28            8                                4
          Other ................................... .               6            5                                5
          TOTAL .................................. .              104           86               9               17


                                                                  tion. The status of OIG civil referrals is as follows:
     8. Referrals
                                                                                                         Cases        Subjects
     The OIG makes three types of referrals to officials out-       Pending Litigation Decision as
     side GSA: criminal, civil, and investigative. During this        of 1O/1I85 ................. .       7             10
     period, we referred 62 cases involving 98 subjects to          Referrals .................... .       6              8
     the Department of Justice or other authorities for crim-       Declinations ................ .        3              6
     inal prosecutive consideration. The status of OIG crim-        Accepted for Litigation ...... .       3              5
     inal referrals is as follows:                                  Pending Litigation Decision as
                                                                      of 3/31186 . ................ .      7              7
                                            Cases      Subjects
        Pending Prosecutive Decision as                           The OIG made 12 case referrals to other Federal or State
          of 1011/85 ................. .      46         94       agencies for further investigation or other action.
        Referrals .................... .      62         98
        Declinations ................ .       42         84
        Accepted for Prosecution ..... .      22         30       9. Administrative Referrals and
        Pending Prosecutive Decision as                              Actions Involving GSA
          of 3/31186 ........ ......... .     44         78
                                                                     Employees
     The OIG also referred 6 cases involving 8 subjects to        Frequently, OIG investigations disclose nonprosecuta-
     either the Civil Division of the Department of Justice       ble wrongdoing on the part of GSA employees, con-
22   or a U.S. Attorney for civil fraud litigation considera-     tractors, or private individuals doing business with the
GSA. The OIG refers these cases to GSA officials for                    ily used administrative procedure. This period, the OIG
administrative action.                                                  referred 11 cases involving 34 subjects for suspension
                                                                        and 13 cases involving 46 subjects for debarment. As a
During the period, we referred 175 cases involving 293
                                                                        result of these and prior referrals, management imposed
subjects for administrative action. In addition, we re-
                                                                        25 suspensions and 31 debarments. Management dis-
ferred 107 cases involving 184 subjects to GSA officials
                                                                        approved 20 debarments.
for informational purposes only.
                                                                        The status of OIG suspension and debarment referrals
The status of OIG administrative referrals is as follows:
                                                                        is as follows:
                                                  Cases   Subjects
  Pending Decision as                                                      Suspensions                        Cases       Subjects
    of 10/1185 . ................             .     50       65
  Referrals ....................              .    175      293            Pending as of 1011/85 . ........      I            1
  Actions Completed ..........                .    179      286            Referrals .....................      11          34
  Pending Decision as                                                      Action Completed ............         7          25
    of 3/31186 . ................             .     46       72            Pending as of 3/31186 . ........      5           10

Of the 175 cases referred for administrative action this                   Debarments                         Cases       Subjects
period, 86 cases (144 subjects) involved GSA employ-                       Pending as of 1011/85 . ........      9          26
ees. As a result of these and prior referrals, management                  Referrals .....................      13          46
took the following actions against GSA employees:                          Action Completed ............        15          51
                                                                           Pending as of 3/31186 . ........      7          21
  Reprimands. . . . . . . . . . . . . . . . . .    24
  Suspensions. . . . . . . . . . . . . . . . .     20
  Terminations.. . ... .. .. .. .... .             14


10. Contractor Suspensions and                                          II. Summary of Referrals by GSA
    Debarments                                                              Program Area
The OIG continued its efforts to make the suspension                    Table 7 summarizes OIG referrals this period by type
and debarment process a more effective and more read-                   of referral and GSA program area.


                                       Table 7.      Summary of OIG Subject Referrals
                               GSA                                                           Adminis-         Suspension/
                             Program                          Criminal           Civil        trative         Debarment

      PBS ................................. .                     35                 1          148                  50
      FSS ................................. .                     57                 7          118                  26
      IRMS ................................ .                      3                              6                   4
      Other GSA ........................... .                      3                             21
     TOTAL ............................... .                      98                 8          293                  80


12. Criminal and Civil Actions
                                                                        ments were reached in 5 cases involving 7 subjects.
Cases accepted for criminal prosecution during this and
prior periods resulted in 28 indictmentslinformationsl                  Table 8 summarizes individual criminal and civil actions
complaints and 17 successful prosecutions. Civil refer-                 by GSA program area. In addition, there were 3 un-
rals from this and prior periods resulted in civil fraud                successful civil cases against 6 subjects and 4 unsuc-
complaints involving 3 individuals. In addition, settle-                cessful criminal cases against 4 subjects.


                                   Table 8.        Summary of Criminal and Civil Actions
                                                                      Indictments/
                                 GSA                                 Informations/        Successful             Civil
                               Program                                 Complaints        Prosecutions         Settlements

     PBS .................................... .                           14                   7                     4
     FSS .................................... .                           13                   7                     2
     IRMS ................................... .                            1                   1                     1
     Other GSA .............................. .                            3                   2
     TOTAL .................................. .                           31                  17                     7
                                                                                                                                     2
     13. Monetary Results                                        in money and/or property during the course of its in-
                                                                 vestigations.
     Table 9 presents the amounts determined to be owed
     the Government as a result of criminal and civil actions.   Owing to the collaborative nature of OIG activities,
                                                                 $3,752,000 of the amounts reported as investigative re-
     The amounts do not necessarily reflect actual monetary
     recoveries.                                                 coveries and criminal and civil recoveries is also re-
                                                                 ported under management commitments to recover
     In addition, the OIG identified for recovery $167,111       funds.



                                      Table 9.     Criminal and Civil Recoveries
                                                                 Criminal              Civil             Total

          Fines and Penalties ...................... .           $ 8,600          $                    $    8,600
          Settlements ............................. .                                 3,673,414         3,673,414
          Restitutions ............................. .             3,753                                    3,753
          TOTAL .................................. .             $12,353          $3,673,414           $3,685,767



     14. OIG Subpoenas
                                                                 one action, the firm agreed to make the subpoenaed
     During the period, seven OIG subpoenas were issued.         material available to the Government; the enforcement
     Also, the OIG, in conjunction with local U.S. Attorneys,    action was subsequently dismissed. The other action is
     was involved in two subpoena enforcement actions. In        pending.




24
SECTION VII-REVIEW OF LEGISLATION
A D REGULATIONS
Section 4(a)(2) of the Inspector General Act of 1978 requires        • H.R. 3357, the proposed Contract Savings Act of 1985, a
the OIG to review existing and proposed legislation and regu-          bill codifYing some of the provisions of Office of Manage-
lations relating to the programs and operations of GSA. In             ment and Budget Circular A-76. We expressed reser-
order to fUlfill this legislated responsibility, the OIG maintains     vations on the need for this bill, indicating that
a clearance system that ensures OlG review of all proposed             regulations and agency directives might be more
legislation, regulations, and internal directives having impact        appropriate vehicles. We objected to the provision
on any aspect of GSA operations.                                       requiring that proposed changes in methods of per-
                                                                       formance by Government personnel be placed in
                                                                       effect exactly as proposed, whether or not a newer
                                                                       and better cost savings method is later found. We
A. Legislation/Regulations                                             also opposed the provision calling for judicial re-
                                                                       view of the merits of any administrative decision,
   Reviewed                                                            including a trial de novo, as it would unnecessarily
                                                                       overburden the judicial system with questions in-
During the period, the OIG reviewed 257 legislative                    volving management judgment, rather than legal
matters and 108 proposed regulations and directives.                   right.
We provided substantive comments on 17 legislative
matters and 13 regulations and directives.                           • H.R. 2441, the proposed Program Integrity Act of 1985,
                                                                       a bill to amend the Federal Property and Administrative
The OIG legal staff primarily performed the legislative                Services Act of 1949 (as amended) to impose personalli-
reviews, seeking input from the other components as                    ability under the False Claims Act for submitting false cost
appropriate. All OIG staff offices participated in re-                 or pricing data. We supported this bill, especially
viewing the proposed regulations, orders, and direc-                   those provisions extending liability to parties who
tives.                                                                 knew or should have known that the data were
                                                                       false. We noted that a change to a constructive
                                                                       knowledge standard would make it more difficult
B. Significant Comments                                                for corporate officials to shield themselves from
                                                                       personal liability.
The OIG provided significant comments on the follow-                 • H.R. 2058, a bill to provide specific law enforcement au-
ing legislation, regulations, orders, and directives:                  thority for members of the Federal Protective Service (FPS).
                                                                       We suggested that, in view of the pending com-
  • S. 1667 and H.R. 3378, the proposed Electronic Com-                prehensive review of the FPS, it might be advisable
    munications Privacy Act of 1985. We supported the                  to defer committee action on this bill. We did, how-
     amendment to Chapter 119 of Title 18, United States               ever, provide technical comments and recommend
     Code, proposed by Title I of these bills, which would             that officers in the criminal investigation function
     extend the chapter's coverage to all forms of elec-               of FPS be covered under this bill.
     tronic communications. However, we expressed re-
     servations about the provisions that would:                     • H.R. 3683, a bill to reduce the use of limousines by Gov-
         Require a court order before a "provider of elec-             ernment officials. We supported enactment of this
         tronic communication service" can release cer-                bill, but expressed reservations on those provisions
         tain information to the Government.                           requiring IGs to submit to Congress an annual eval-
                                                                       uation of agency compliance and to take adverse
         Allow the recovery of civil damages from vio-                 actions against violators. We expressed the view
         lators of the Act, since it could be construed as             that compliance should be presumed and that ad-
         a waiver of sovereign immunity by the United                  verse actions were more properly the prerogative
         States.                                                       of agency management.
      Additionally, we opposed enactment of Title II,                • S. 1937, the proposed Nonsmokers Rights Act of 1985. We
      which would generally require the issuance of a                   expressed support for the intended goals of this
      court order to authorize the use of a pen register                bill, noting that it appeared to rationally address
      or tracking device. We expressed the view that ex-                an increasingly important and controversial issue.
      isting constitutional law adequately protects pri-
      vacy rights.                                                   • H.R. 3997, the proposed National Policy and Technology
                                                                       Foundation Act of 1985, a bill to create a new a8el1LY out
  • H.R. 3319, a bill to amend the Frcedom of Information
                                                                       of major components of the Department of Commerce and
    Act. We strongly supported those provisions lim-
                                                                       the National Science Foundation. We recommended that
    iting the release oflaw enforcement manuals, based
                                                                       the bill be amended to provide for an Inspector
    on the belief that this change would benefit the IG
                                                                       General.
    community. We opposed other provisions due to
    the administrative and financial burdens they would              • S. 1134. the proposed Pr08ram Fraud Civil Remedies Act.
    create.                                                            a bill to create an administrative remedy whereby Federal      2
       agencies can be recompensed for losses resulting from false         that would facilitate handling of FOIA requests
       claims and statements. We strongly supported this bill,             that are adjuncts to discovery.
       especially those provisions that would:
                                                                       We generally supported those amendments con-
          Extend liability to persons who knew or had                  cerning fees and waiver of fees, although we ques-
          reason to know they were submitting a false                  tioned the amendment to promote expedited access
          claim or causing one to be submitted.                        as being too difficult to administer due to the com-
          Provide the United States setoff authority for               pelling need requirement. We opposed those
          collecting assessments and penalties for false               amendments relating to administration of the FOIA.
          claims.
                                                                     • S. 2005, the proposed Inspector General Act Amendments
       We suggested the addition of a provision allowing               of 1986. We generally supported this bill, noting that
       the reviewing official to determine liability when              it would serve to improve management and reduce
       the defendant doesn't request a hearing.                        fraud and abuse in Federal programs. In our de-
                                                                       tailed comments, we strongly supported the pro-
     • S. 2030, the proposed Procurement Safeguard Act of 1986,
                                                                       visions that would:
       a bill to extend the protest jurisdiction of the GSA Board
       of Contract Appeals to all Federal procurements. We op-             Place the IGs at the Departments of Energy and
       posed this bill, noting that while its intended goals               Health and Human Services under the IG Act
       were laudable, the legislation might result in a more               of 1978.
       cumbersome, legalistic, delay-prone, and costly                     Establish a uniform level of compensation for
       contract award process. We observed that it would                   all IGs.
       cause the Government's procurement process to
       operate in a less businesslike manner, a move con-                  Authorize IG personnel to administer oaths and
       trary to recent initiatives. We also expressed the                  affirmations.
       opinion that:                                                   We also expressed substantive concerns on the pro-
           The definition of interested party was too broad,           vision that would extend statutory IG responsi-
           significantly increasing the universe of poten-             bilities and authorities to every audit/investigative
           tial protestors.                                            unit in virtually every agency. In view of the prob-
           The standard for waiving the agency procure-                lems posed by the bill's apparent mingling of audit
           ment authority requirement was too high, lead-              and investigative functions, we suggested that de-
           ing to unnecessary delays and cost increases.               terminations to extend IG Act coverage be made
                                                                       on a case-by-case basis.
           The circumstances resulting in de novo review
           by the Board were both appropriate and proper.            • GSA Order ADM 2800.12G, Procurement of Consulting
                                                                       Services. We supported this effort to improve man-
     • Draft Executive Order No. 16, a proposed order prescribing      agement controls over consulting services and of-
       a comprehensive system of financial reporting for officers      fered several suggestions for strengthening its pro-
       and employees in the executive branch. We supported             visions. One of our recommendations called for the
        this proposed executive order, commenting that it              inclusion of a requirement to specify a dollar limit
        was necessary and appropriate in light of legisla-             per consultant or firm to prevent "order splitting."
        tion amending the Ethics in Government Act.
                                                                     • Proposed revisions to GSA Order ADM 2030.2A, Audit
     • H.R. 4033, the proposed Whistleblower Protection Act of         Resolution and Followup System. We opposed the re-
        1986. We expressed strong reservations on this bill,           vision deSignating an Associate Administrator as
        noting that conflicts would arise if the Office of             the Audit Followup Official rather than the Deputy
        Special Counsel, Merit System Protection Board                 Administrator. We expressed the view that the ex-
        (MSPB), represented Federal employees in adver-                isting system worked successfully and placed no
        sarial proceedings and also functioned as an in-               undue burden on the Deputy Administrator. More-
        vestigative unit recommending corrective action to             over, the existing system precluded many of the
        Federal agencies. We noted that such conflicts might           problems that would inevitably result if an Asso-
        restrict the ability of OIGs to exchange information           ciate Administrator acted in a dual capacity.
        with MSPB. We also observed that some provisions
        of the bill would unduly restrict the flexibility and        • GSA Order PBS P 7025.3 CHGE, Chapter 6, Out/easing
        discretion of the Special Counsel.                             Program Policy and Procedures. We supported the draft
                                                                       procedures as being an essential and positive step
     • Draft Bill 105, proposed amendments to the Freedom of
                                                                       towards increasing outlease revenues from public
       Information Act (FOlA). We strongly supported the:
                                                                       access space in Federal buildings. We did suggest,
            Amendments to strengthen an agency's ability               however, that the procedures be expanded in cer-
            to protect sensitive investigative activity.               tain key areas in order to provide more detailed
            Proposed change to subsection (a)(3) of the Act            guidance on implementing the outieasillg program.




26
SECTION VIII-OTHER OIG ACTIVITIES
In addition to detecting problems in GSA operations, the OIG         VII) and continued preaward coverage of GSA's leasing
is responsible for initiating actions to prevent fraud, waste, and   program. These activities stem from the belief that many
abuse and to promote economy and efficiency. This section de-        of tomorrow's problems can be avoided through deci-
tails: the OIG program responding to these legislated prevention     sive action today.
responsibilities and OIG involvement in projects sponsored by
                                                                     The OIG's program for reviewing leases prior to award
the President's Council on Integrity and Efficiency (PCIE).
                                                                     provides front-end assurance that GSA is adhering to
                                                                     regulations and procedures before awarding selected
                                                                     leases involving annual rentals in excess of $200,000.
A. OIG Prevention Program                                            The reviews, although purely advisory in nature, limit
                                                                     opportunities for fraud, waste, and abuse in the leasing
The OIG prevention program is comprised of four ele-                 area.
ments that simultaneously focus on minimizing oppor-                 The program achieved the following results during the
tunities for fraud, waste, and abuse and promoting                   reporting period:
awareness among GSA employees. This four-pronged
approach consists of:                                                   Lease   proposals   submitted for review ........ 90
                                                                        Lease   proposals   reviewed ................... 29
   • Defining areas vulnerable to fraud, waste, and abuse               Lease   proposals   with major deficiencies. . . . . .. I
     and assessing the degree of vulnerability.                         Lease   proposals   with minor deficiencies ..... 19
   • Anticipating potential problem areas and perform-                  Lease   proposals   with no deficiencies .......... 9
     ing front-end reviews to help ensure that programs              A major deficiency identified through OIG preaward
     will operate within applicable laws, policies, and              advisory reviews related to the absence of an automatic
     procedures.                                                     sprinkler system atJove the 20th floor of the building to
   • Educating GSA employees on the manifestations                   be leased and the absence of a requirement for an abate-
     of fraud and the mechanisms for reporting suspi-                ment plan in the proposed lease. Some of the minor
     cions or allegations to the OIG.                                deficiencies included: the failure to include a liquidated
                                                                     damages clause to protect the Government; an anti-
   • Communicating the OIG presence and establishing                 quated appraisal that did not reflect the correct amount
     mechanisms that promote a dialogue between GSA                  of space to be leased; and failure to check the inventory
     employees and the OIG.                                          of vacant space prior to proposing that new space be
                                                                     leased.
1. Definition
The OIG considers the identification of vulnerable areas
to be a major prerequisite to the prevention of fraud,
                                                                     3. Education
waste, and abuse. This period, OIG definition activities
                                                                     Integrity Awareness Briefings comprise the OIG's pri-
included a study of the OIG's Management Inventory
                                                                     mary vehicle for educating employees in the manifes-
of Auditable Entities.
                                                                     tations of fraud and abuse. Individual briefings explain
The inventory, which is designed to fulfill the require-             the statutory mission of the OIG and the functions ex-
ments imposed by Office of Management and Budget                     ecuted by each of our component offices. In addition,
Circular A-73, contains the universe of GSA organiza-                through case studies and slides, the briefings expose
tional units subject to audit. Each entity is rank-ordered           GSA employees to actual instances of white collar crime
in terms of perceived vulnerability to fraud, waste, and             in GSA and other Federal agencies. They conclude with
mismanagement through the use of II weighting fac-                   a presentation on bribery that teaches employees how
tors.                                                                to recognize bribery attempts; how to respond to them;
                                                                     and the employee's potential role in an ensuing inves-
The study assessed the design assumptions applied in                 tigation.
developing the inventory, and the associated advan-
tages and disadvantages. It also explored alternative de-            Since the inception of this program in 1981, almost
signs that might overcome the recurring need to update               6,510 GSA employees have attended Integrity Aware-
the inventory in response to frequent GSA reorgani-                  ness Briefings. This total includes the 727 Central Office
zations.                                                             and regional employees attending 24 briefings this pe-
                                                                     riod.
The study results are currently being summarized in a
briefing paper for the Assistant Inspector General for
Auditing.
                                                                     4. Communication
2. Anticipation
                                                                     A free flow of information between GSA employees and
OIG anticipation activities this period focused on re-               the OIG is a vital prevention and detection element.
view of proposed legislation and regulations (Section                Recognizing this fact, the OIG issues brochures on the         2
     Hotline and its Report to the Congress and displays                                 2. Review of Federal
     Hotline posters in all GSA buildings nationwide.
                                                                                            Telecommunication System
     This period, the OIG, in cooperation with Agency man-
     agement, published a practical ethics brochure and dis-                                (FTS) Utilization
     tributed it to GSA employees nationwide. The OIG also
     arranged for each new employee to receive a copy as                                 The GSA OIG is the lead agency for this PCIE review
     part of the material distributed at orientation.                                    aimed at:

     The OIG developed the brochure after noting that em-                                   4iI   Evaluating the utilization of telecommunication re-
     ployees might not possess sufficient understanding of                                        sources.
     GSA's Standards of Conduct. Key indicators included                                    4iI   Identifying ways of reducing telecommunication
     the level of employee misconduct cases and a high num-                                       costs through more effective and efficient manage-
     ber of conduct-related inquiries during Integrity Aware-                                     ment of these resources.
     ness Briefings.
                                                                                         Seventeen agencies are participating in this two-phased
     The brochure presents applications of the Standards in                              review, including the Department of Defense and most
     situations the typical GSA employee might encounter                                 major civilian agencies.
     during his/her Federal career. Using vignettes and il-
     lustrations, it attempts to mmmunicate basic ethics                                 This period, all of the participating agencies completed
     principles in an interesting and straightforward man-                               Phase I of the effort, which evaluated agency controls
     ner. To date, employee response has been extremely                                  over the ordering, receipt, and verification of telecom-
     favorable. In fact, the brochure is already in its second                           munication services, and most have completed Phase
     printing.                                                                           II, which examines controls over the use of telecom-
                                                                                         munication resources. In addition, the project team
     This period, we received 368 Hotline calls and letters.                             completed its examination of telecommunication con-
     Of these, 107 mmplaints warranted further action. We                                trols in use by State governments and private industry
     also received 10 referrals from GAO and 12 referrals                                for possible application within the FTS.
     from other agencies that required further action. These
     complaints/allegations were referred as follows:                                    The effort will culminate in individual agency reports,
                                                                                         scheduled for issuance in April 1986, followed by a
             Audits/Investigations ....................... 74                            consolidated report in June 1986.
             GSA Program Officials ...................... 52
             Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 3
                                                                                         3. Model Prevention Plan Follow-
     The remaining 261 Hotline complaints required no fur-
     ther action and were closed.                                                           Up Project
                                                                                         The GSA OIG participated in the Prevention Committee
                                                                                         Model Prevention Plan (MPP) Follow-Up Project. The
                                                                                         overall objective was to review agencies/departments'
                                                                                         progress in implementing the MPP, which OMB trans-
     B. Projects Sponsored by                                                            mitted to them in April 1984.

        the PCIE                                                                         The project was completed this period with the issuance
                                                                                         of the final report on December 2, 1985.
     The OIG continued to participate in interagency projects spon-
     sored by the PClE. Specific involvement this period is delineated                   4. Review of Compliance With IRS
     by project in the paragraphs that follow. In addition to these
     efforts. OIG staff members also provided ongoing support to                            Information Return Filing
     several PCIE committees.                                                               Requirements (Form 1099)
                                                                                         The GSA OIG is participating in this PCIE project aimed
     1. Technical Experts                                                                at:
                                                                                           4iI    Identifying agen('y nonwage payments made to in-
     The GSA OIG participated in this PClE Prevention                                             dividuals and partnerships in calendar year 1984.
     Committee project aimed at determining:
                                                                                           4iI    Assessing agency compliance with the Internal
      4iI The extent to which IG organizations use technical
                                                                                                  Revenue Service (IRS) information return filing re-
          experts in performing audits, investigations, and
                                                                                                  quirements.
          i nspecti ons.
                                                                                         IRS uses Form 1099 information to determine whether
       4iI    The feasibility/desirability of increasing the use of
                                                                                         taxpayers have properly reported payments from Gov-
              technical experts by IG organizations.
                                                                                         ernment agencies in their income tax returns.
       4iI    Methods that can be used by IG organizations to
                                                                                         Twenty agencies are participating in this two-phased
              increase the use of technical experts.
                                                                                         review. Individual agency reports are scheduled for is-
     The project was.completed this period with the issuance                             suance in May 1986; the consolidated report will follow
     of the final report in October 1985.                                                in July 1986.
28
APPENDICES
     APPENDIX I-AUDIT REPORT REGISTER
     Assignment                                                                                           Date of
     Number     Title                                                                                     Report


     PBS         Contract Audits
     A40182     Audit of Cost Reimbursable Contract: Post Office Pavilion Joint Venture, Contract         10/03/85
                No. GS-llB-28446
     A50314     Pre award Audit of Change Order Proposal: DeMour Construction Corp., Subcon-              10/07/85
                tractor to Terminal Construction Corp., PDL 37, Contract No. GS-02P-23256
     A50569     Pre award Audit of Lease Escalation Proposal: Lamar Management, Inc., Lease No.           10/08/85
                GS-03B-05735
     A50623     Audit of Architect and Engineering Services Contract: Kidd/Plosser/Sprague Archi-         10/08/85
                tects, Inc., Solicitation No. GS-04B-83253
     A50578     Pre award Audit of Architect and Engineering Services Contract: GDM & Associates,         10/10/85
                Inc., Solicitation No. GS-lOP-02729
     A50579     Pre award Audit of Architect and Engineering Services Contract: Genesis Engineers,        1Oil 0/85
                Solicitation No. GS-IOP-02729
     A50589     Pre award Audit of Architect and Engineering Services Contract: Wood/Harbinger,           10/16/85
                Inc., Contract No. GS-lOP-02730
     A50600      Pre award Audit of Architect and Engineering Services Contract: Church/Suzuki Ar-        10/16/85
                 chitects, P.S., Contract No. GS-lOP-02730
     A50585     Pre award Audit of Lease Escalation Proposal: Federal Plaza Associates, Lease No.         10/18/85
                GS-05B-13381
     A50586      Preaward Audit of Lease Escalation Proposal: Samuel Zeit Trustee Under Trust No.         10/18/85
                 3132, Lease No. GS-03B-5711
     A50643      Preaward Audit of Architect and Engineering Services Contract: John Lawrence Daw         10/23/85
                 & Associates, Kansas City, Missouri, Solicitation No. GS-06B-62230
     A50658      Audit of Costs Incurred Under Contract No. GS-03C-26028: Columbus Services, Inc.         10/23/85
     A50637      Pre award Audit of Cost or Pricing Data: Saloy, Sr.!Grice, Joint Venture, Solicitation   10/24/85
                 No. NWA 38900
     A60017      Preaward Audit of Lease Escalation Proposal: Equitable Real Estate Investment Man-       10/25/85
                 agement, Inc., Lease No. GS-09B-73066
     A50249     Preaward Audit of Change Order Proposal: Spencer, White & Prentis, Inc., Second           10/28/85
                Tier Subcontractor to Terminal Construction Corp., PDL 37, Contract No. GS-02P-
                23256
     A50626      Preaward Audit of Change Order Proposal: Technical Specialty Systems, Cedar Rap-         10/28/85
                 ids, Iowa, Contract No. GS-06P-52470
     A50551      Preaward Audit of Architect and Engineering Services Contract: Geisler Smith As-         10/29/85
                 sociatesrrhe Harris Design Group, Joint Venture, Contract No. GS-il B-59006
     A50606      Preaward Audit of Architect and Engineering Services Contract: Girard Engineering,       10/29/85
                 Ltd., Contract No. GS-IIB-56071
     A50644     Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Ridley             10/29/85
                Southside Janitorial Service, Inc., Kansas City, Missouri, Solicitation No. GS-06P-
                57600
     A50629     Pre award Audit of Small Business Administration 8(a)             Proposal: National      1O/3l/85
                Janitorial Service, Scottsbluff, Nebraska, Solicitation No. GS-06P-57588
     A50666      Audit of Termination Proposal: American Combustion, Inc., Contract No. GS-IIB-           ll105/85
                 48021
     A60031      Preaward Audit of Lease Escalation Proposal: 16 Court Street, Brooklyn, NY, Lease        11106/85
30               No. GS-02B-10317
A60036   Pre award Audit of Lease Escalation Proposal: California State Automobile Associ-      11106/85
         ation, Lease No. GS-09B-75262
A30816   Audit of Lease Utility Credit: Northwestern Development Company, Lease No. GS-         11/07/85
         03B-6521
A50563   Pre award Audit of Architect and Engineering Services Contract: Diversified Engi-      11112/85
         neering, Inc., Contract No. GS-11B-57010
A50640   Preaward Audit of Lease Escalation Proposal: Jimson, Inc., Lease No. GS-03B-80052      11114/85
A50558   Audit of Overtime Billings for Construction Work Performed Under Lease No. GS-         11118/85
         03B-40032: 841 Associates, L.P.
A50588   Pre award Audit of Change Order Proposal: Blake Construction Co., Inc., Contract       11118/85
         No. GS-llB-08981, Change Order No.2 PDL
A60010   Audit of Termination Proposal: Shirlen Limited Partnership, Lease No. GS-03B-          11119/85
         50020
A50495   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Robert Clay,   11126/85
         Inc., Contract No. GS-11B-59081
A60043   Pre award Audit of Architect and Engineering Services Proposal: H. F. Lenz Co.,        11/26/85
         Solicitation No. ZDE-00801
A60092   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Brown's        11/29/85
         Maintenance and Security Co., Inc., Leavenworth, Kansas, Solicitation No. GS-06P-
         57621
A60058   Pre award Audit of Change Order Proposal: Myers/Ernst, A Joint Venture, Contract       12/02/85
         No. GS-OIB-02294
A60093   Preaward Audit of Change Order Proposal: The Hoffman Partnership, Inc., St. Louis,     12/04/85
         Missouri, Contract No. GS-06P-42870
A60077   Pre award Audit of Architect and Engineering Services Contract: Peck, Peck & As-       12/09/85
         sociates, Inc., Contract No. GS-IIB-560n
A60051   Pre award Audit of Architect and Engineering Services Proposal: Lawrence Perry &       12/10/85
         Associates, Inc., Solicitation No. ZDE-00801
A60075   Pre award Audit of Change Order Proposal: Singleton Contracting Corporation, Con-      12/10/85
         tract No. GS-03B- 36017
A60049   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Professional   12/13/85
         Services Unlimited, Solicitation No. GS-I0P-51339
A50570   Pre award Audit of Change Order Proposal: Worth Construction Co., Inc., Subcon-        12/16/85
         tractor to Terminal Construction Corp., PDL 38, Contract No. GS-02P-23256
A60052   Audit of Termination Proposal: Dimarco Corporation, Florissant, Missouri, Contract     12/16/85
         No. GS-06B-26160
A60073   Preaward Audit of Lease Escalation Proposal: Total Management, Inc., Lease No.         12/18/85
         GS-03B-06437
A60042   Preaward Audit of Lease Escalation Proposal: Norman Tremonti, Lease No. GS-05B-        12/19/85
         12458
A60042   Pre award Audit of a Claim for Increased Costs: Norman Tremonti, Lease No. GS-         12/19/85
         05B-12458
A60023   Pre award Audit of Architect and Engineering Services Proposal: James Posey As-        12/23/85
         sociates, Inc., Solicitation No. ZDE-00801
A60018   Preaward Audit of Architect and Engineering Services Contract: Bohlin/Powell!Lar-      12/24/85
         kin/Cywinski, Prospectus Project No. IPA-88305
A50641   Preaward Audit of Lease Escalation Proposal: Charlottesville Parking Center, Inc.,     12/31/85
         Lease No. GS-03B-60011
A50279   Preaward Audit of Change Order Proposal: Billings & Birckhead, Inc., Contract No.      01109/86
         GS-IIB-18334
A50541   Preaward Audit of Change Order Proposal: The Maintenance Co., Inc., Subcontractor      01109/86
         to George A. Fuller Company, Contract No. GS-02P-23364
                                                                                                           31
     A60027    Preaward Evaluation of Architect and Engineering Services Contract: The Mathes        0l/09/86
               Group, et al, A Joint Venture, Solicitation No. ILA 84012
     A60068    Pre award Audit of Architect and Engineering Services Contract: Slater-Paull & As-    0l/09/86
               sociates, Inc., Solicitation No. GS-08B- 35079
     A60069    Preaward Audit of Architect and Engineering Services Contract: Anderson and Has-      01l09/86
               tings, Solicitation No. GS-08B- 35079
     A60070    Pre award Audit of Architect and Engineering Services Contract: Gambrell Engi-        01l09/86
               neering, Inc., Solicitation No. GS-08B-35079
     A60071    Preaward Audit of Architect and Engineering Services Contract: Cator, Ruma &          01109/86
               Associates Co., Solicitation No. GS-08B- 35079
     A60048    Preaward Audit of Architect and Engineering Services Proposal: H. C. Yu and As-       01i10/86
               sociates, P.c., Solicitation No. ZDE-0080 1
     A50467    Pre award Audit of Five- Year Rental Proposal: Gilroy-Sims & Associates, St. Louis,   0l/13/86
               Missouri, Lease No. GS-06B-I0967
     A60028    Pre award Audit of Architect and Engineering Services Contract: DeLara-Almond         01/13/86
               Architects, Inc./Jones and Kell, Inc., A Joint Venture, Solicitation No. ITX 86005
     A60123    Pre award Audit of Architect and Engineering Services Contract: Neill and Gunter,     0l/14/86
               Incorporated, Solicitation No. GS-OIP-86-BW-C-0016
     A50659    Preaward Audit of Change Order Proposal: George Hyman Construction Company,           01115/86
               Contract No. GS-IIB-19068, Change Order No. 94 PDL
     A50636    Preaward Audit of Architect and Engineering Services Contract: Keyes/Condon/Flor-     01/16/86
               ance Architects, Contract No. GS-IIB-59024
     A60085    Pre award Audit of Cost or Pricing Data: Richard C. Slack, Lessor, Solicitation No.   01116/86
               R7-74N-84
     A50646    Preaward Audit of a Claim for Increased Costs: st. Charles Manufacturing Company,     01l17/86
               Subcontractor to Turner Construction Company, Contract No. GS-05BCA-0307
     A60025    Pre award Audit of Architect and Engineering Services Contract: Cooper-Lecky As-      01l17/86
               sociates, P.c., Contract No. GS-il B-59008
     A60044    Preaward Audit of Architect and Engineering Services Proposal: Celli-Flynn/H.E        01l17/86
               Lenz Co., Project No. IPA-56024
     A50646    Preaward Audit of a Claim for Increased Costs: Turner Construction Company, Con-      0l/22/86
               tract No. GS-05BCA-0307
     A50646    Preaward Audit of a Claim for Increased Costs: Tibbetts Mechanical Contractors,       01122/86
               Subcontractor to Turner Construction Company, Contract No. GS-05BCA-0307
     A60087    Preaward Audit of Architect and Engineering Services Contract: Architectural In-      01/24/86
               teriors, Inc., Contract No. GS-IIB-59007
     A60127    Pre award Audit of Architect and Engineering Services Contract: Mueller Associates,   01/27/86
               Inc., Contract No. GS-II P-86-MK-C-9004
     A50559    Audit of Overtime Billings for Construction Work Performed Under Lease No. GS-        01/29/86
               03B-40033: Liberty Square Associates, L.P.
     A6013 1   Preaward Audit of Lease Escalation Proposal: Spear Street Investment Company,         01/31/86
               c/o William Wilson & Associates, Lease No. GS-09B-73348
     A60132    Pre award Audit of Lease Escalation Proposal: G.V. Eleven, A Limited Partnership,     01l3l/86
               Lease No. GS-09B-60808
     A60112    Preaward Audit of Architect and Engineering Services Contract: Hayes, Seay, Mat-      02/04/86
               tern, and Mattern, Contract No. GS-IIP-86-MK-C-9001
     A60024    Preaward Audit of Architect and Engineering Services Proposal: James Posey As-        02/05/86
               sociates, Inc., Solicitation No. IMD-56025
     A60140    Preaward Audit of Architect and Engineering Services Contract: VVKR Incorporated,     02/10/86
               Contract No. GS-llP-86-MK-C-9008
     A50475    Pre award Audit of Change Order Proposal: Halifax Engineering, Inc., Contract No.     02/1ll86
               GS-IIB-30029
32
A60148   Pre award Audit of Architect and Engineering Services Contract: Wiley & Wilson, A       02111186
         Professional Corporation, Contract No. GS-IIP-86-MK-C-9007
A60186   Pre award Audit of Cost or Pricing Data: Rainey's Security Agency, Inc., Solicitation   02/11/86
         No. GS-05P-86-GA-C-0004
A60094   Preaward Audit of Lease Alteration Proposal: Milk Street Associates, Solicitation       02112/86
         No. GS-OIB(PEL)-03420(NEG)
A60176   Pre award Audit of Architect and Engineering Services Contract: Kidde Consultants,      02/12/86
         Inc., Contract No. GS-IIB-69005
A60175   Pre award Audit of Architect and Engineering Services Contract: LEA Group, Solic-       02118/86
         itation No. GS-OIP-86-BW-D-0036
A60151   Preaward Audit of Architect and Engineering Services Contract: STV/H.D. Not-            02120/86
         tingham & Associates, Contract No. GS-llP-86-MK-C-9003
A60189   Pre award Audit of Lease Operating Costs: 177 Limited Partnership, Solicitation No.     02120/86
         MMD 85101
A50054   Audit of Claim for Increased Costs: W. M. Schlosser Company, Inc., Contract No.         02121186
         GS-03B-88347
A60150   Preaward Audit of Architect and Engineering Services Contract: Loewenberg/Fitch         02121/86
         Partnership, Proposal No. GS-05P-86-GB-C-0039
A60155   Preaward Audit of Architect and Engineering Services Contract: Sidhu & Associates,      02125/86
         Inc., Contract No. GS-IIB-69016
A60135   Audit of Cost Reimbursable Contract: J & J Maintenance, Inc., Contract No. GS-          02127/86
         07B-21602
A60181   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Ridley           02128/86
         Southside Janitorial Service, Inc., Kansas City, Missouri, Solicitation No. GS-06P-
         57640
A60241   Audit Report on Evaluation of Time and MaterialslTask Order Proposal: Booz, Allen       02/28/86
         & Hamilton, Inc., RFP No. GS-00P-02253

A60157   Preaward Audit of Architect and Engineering Services Contract: David Volkert &          03/03/86
         Associates, Contract No. GS-llP-86-MK-C-9002
A60185   Preaward Audit of Architect and Engineering Services Contract: Belli & Belli Com-       03/07/86
         pany, Contract No. GS-05P-86-GB-C-0044
A60209   Preaward Audit of Architect and Engineering Services Contract: Riddick Engineer-        03/13/86
         ing Corporation, Contract No. GS-07P-HU-D-009
A60197   Preaward Audit of Change Order Proposal: Schumacher Elevator Company, Inc.,             03/14/86
         Denver, Iowa, Contract No. GS-06P-86-GY-C-0006
A60243   Preaward Audit of Architect and Engineering Services Contract: Lorenz and WiJ-          03119/86
         Iiams, Inc., Contract No. GS-05-BC-P-86-C-0046
A50597   Audit of Termination Proposal: Caddell Construction Co., Inc., Contract No. GS-         03/20/86
         08B-05100
A60173   Preaward Audit of Lease Escalation Proposal: Tower Building, Joint Venture, Lease       03/20/86
         No. GS-03B-6295
A60224   Preaward Audit of Amendment to Architect and Engineering Services Contract: The         03/21186
         Stubbins Associates, Inc., Contract No. GS-OIB-92223, Amendment 5C
A60159   Preaward Audit of Claim for Increased Costs: Meredith Construction Co., Inc., Con-      03/24/86
         tract No. GS-03B-16073
A60215   Pre award Audit of Architect and Engineering Services Contract: John E. Somerville,     03/26/86
         Contract No. GS-05B-CP-86-GS-C-0047


PBS      Internal Audits
A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-25447, Cov-         10/01185
         ington Building, Koger Executive Center, Miami, Florida
A50599   Review of Administration of Leases at 1333 Broadway, Oakland, California                10/03/85   33
     A50346   Advisory Report on Review of Controls Over the Identification, Inspection, and          10/04/85
              Documentation of Polychlorinated Biphenyls (PCBs)
     A50346   Advisory Report on Review of Controls Over the Identification, Inspection, and          10/07/85
              Documentation of Polychlorinated Biphenyls (PCBs)
     A50346   Advisory Report on Review of Controls Over the Identification, Inspection, and          10/11185
              Documentation of Polychlorinated Biphenyls (PCBs)
     A50218   Review of Buildings Management Operations, Region 7                                     10/17/85
     A50346   Final Report on Potential PCB Contamination at the Casad Depot, New Haven,              10/21/85
              Indiana
     A50226   Review of Indefinite Quantity Contracts Awarded by Region 4                             10/23/85
     A50IlO   Review of Manual System for Monitoring Multi-Unit Leases                                10/25/85
     A50218   Review of Buildings Management Operations, Houston, Texas                               10/25/85
     A60046   Pre award Lease Review: Equitable "N' & "B-1," 1705-1717 Whitehead Road, Wood-          10/28/85
              lawn, Maryland, Lease No. GS-03B-50053
     A50584   Review of Time and Attendance Reporting at the Federal Plaza Buildings Manage-          10/30/85
              ment Field Office
     A50226   Interim Audit Report, Administration of Indefinite Quantity Contracts for Repairs       1110l/85
              and Alterations
     A50553   Interim Report on Review of Fire Safety Program, National Capital Region, General       1l/0l/85
              Services Administration, Washington, DC
     A60062   Preaward Lease Review: 20 Massachusetts Avenue, NW, Washington, DC, Lease No.           11101/85
              GS-llB-50062
     A50286   Review of Architect/Engineer Construction Inspection Services, Region 1, General        11108/85
              Services Administration, Boston, Massachusetts
     A50553   Interim Report on Review of GSNs Regional Fire and Life Safety Program, 6230            11112/85
              Van Nuys Boulevard, Los Angeles, CA, Region 9
     A50553   Interim Report on Review of GSNs Regional Fire and Life Safety Program, Chet            11/12/85
              Holifield Federal Building, 24000 Avila Road, Laguna Niguel, CA, Region 9
     A60080   Preaward Lease Review: Washington Bicentennial Building, 320 W. Washington              11/15/85
              Street, Springfield, Illinois, Lease No. GS-05B-14102
     A50553   Interim Report on Review of Fire Safety Program, National Capital Region, General       1111S/85
              Services Administration, Washington, DC
     A50284   Review of the Proposed Leased Border Station at Presidio, Texas                         11119/85
     A50284   Review of Special Purpose Leased Facility, IRS District Office, Houston, Texas, Lease   11120/85
              No. GS-07B-11667
     A50553   Interim Report on Fire and Life Safety Program, 6 World Trade Center, New York,         1l/20/85
              NY
     A50287   Review of Tenant Relocation From the Curtis Building, 625 Walnut Street, Phila-         1l/26/85
              delphia, PA
     A50621   Review of Region 5's Lease Enforcement Activities: Results of Tenant Questionnaire      11l26/85
              Responses
     A60098   Preaward Lease Review: 4700-4724 Benson Avenue, Halethrope, MD, Lease No.               11126/85
              GS-03B-06364
     A50553   Review of Fire and Life Safety Program at the MEPS Facility, 426 Clinton Street,        12/05/85
              Detroit, Michigan
     A50553   Review of Fire and Life Safety Program at the Federal Building and U.S. Courthouse,     12/05/85
              Columbus, Ohio
     A50553   Review of Fire and Life Safety Program at the IRS Data Center, 1300 John Lodge          12/05/85
              Drive, Detroit, Michigan
     A60097   Pre award Lease Review: 350 South Figueroa Street, Los Angeles, CA, Lease No. GS-       12/06/85
34            09B-50039
A60104   Preaward Lease Review: 18209 Dixie Highway, Homewood, Illinois, Lease No. GS-         12/10/85
         05B-14300
A50553   Review of Fire and Life Safety Program at the Patrick V. McNamara Federal Building,   12/17/85
         Detroit, Michigan
A60109   Pre award Lease Review: Mutual Plaza Building, Durham, North Carolina, Lease No.      12/17/85
         GS-04B-26026
A60120   Pre award Lease Review: Food and Drug Laboratory, 585 Commercial St., Boston,         12/17/85
         MA, Contract No. GS-OIB(PRA)-03613(NEG) SLA No.4
A50539   Review of Buildings Management Field Office, Anchorage, Alaska                        12/20/85
A60019   Preaward Lease Review: Henderson, North Carolina, Lease No. GS-04B-22197              12/27/85
A60021   Analysis of Tenant Agencies' Response to Questionnaire Regarding Quality of Lessor    12/27/85
         and GSA Services
A60125   Preaward Lease Review: Twin Towers II, 1100 Wilson Blvd., Arlington, Virginia         01102/86
A30474   Review of the Buildings Management Inspection Process                                 01103/86
A50379   Review of Transformers at the Federal Center, 4300 Goodfellow Avenue, St. Louis,      01104/86
         MO
A60145   Pre award Lease Review: 6300 Wilshire Boulevard, Los Angeles, CA, Lease No. GS-       01107/86
         09B-73821
A60021   Survey of Tenant Agencies in Leased Space, Region 9                                   01110/86
A50553   Interim Report on Fire and Life Safety Program, 26 Federal Plaza, New York, NY        01113/86
A50618   Analysis of Composite Floor System Deflections, Federal Building, Causeway Street,    01114/86
         Boston, Massachusetts
A60002   Interim Report on Review of Cleveland Field Office Operations                         01124/86
A60021   Review of Region 3's Lease Enforcement Procedures: Analysis of Questionnaire          01124/86
         Responses From Tenant Agencies
A60130   Pre award Lease Review: 820 Bear Tavern Road, West Trenton, NJ, Lease No. GS-         01127/86
         02B-22297
A60182   Preaward Lease Review: Landover Building, 1701 Brightseat Road, Landover, MD,         01130/86
         Lease No. GS-llB-60015
A50009   Review of Region 4's Lease Enforcement Procedures, Lease No. GS-04B-23288, Re-        01131186
         search Triangle Park, North Carolina
A50104   Review of Construction Contract Administration, Region 4                              01131186
A50571   Review of Administration of Cleaning Contracts in Region 4                            0l/3l/86
A50179   Review of Construction at the Federal Office Building, Jamaica, Queens, Contract      02104/86
         No. GS-02P-23256
A60171   Preaward Lease Review: 601 Pennsylvania Avenue, NW, Washington, DC, Lease No.         02/04/86
         GS-llB-600 12
A60191   Preaward Lease Review: Lease No. GS-04B-2026, Mutual Plaza Building, Durham,          02/04/86
         North Carolina
A50553   Review of GSA's Regional Fire and Life Safety Program, Region I                       02/05/86
A60083   Preaward Lease Review: 177-179 Admiral Cochran Drive, Annapolis, MD, Lease            02/06/86
         No. GS-04B-60008
A60199   Preaward Lease Review: Friendship Airport No.6, Linthicum, MD, Lease No. GS-          02/06/86
         03B-06166
A60172   Pre award Lease Review: 1400 New York Avenue, NW, Washington, DC, Lease No.           02/07/86
         GS-IIB-60011
A60192   Preaward Lease Review: Palm Beach County Engineering Building, West Palm Beach,       02/11186
         Florida, Lease No. GS-04B-25511
A50009   Review of Region 4's Lease Enforcement Procedures: Analysis of Questionnaire          02/12/86
         Responses Received From the Review of Lessor and GSA Services                                    35
     A50284   Space Utilization, U.S. Border Stations at Laredo, Texas                              02/12/86
     A60222   Pre award Lease Review: 10220 North Executive Hills Boulevard, Kansas City, Mis-      02112186
              souri, Lease No. GS-06P-68539
     A60107   Pre award Lease Review: 606 South Olive Street, Los Angeles, CA, Lease No. GS-        02/18/86
              09B-83716
     A60089   Review of Outlease With Chesapeake Container Repair, Corp., Middle River Depot,       02/19/86
              Middle River, MD
     A60207   Review of A-76 Mechanical Services Study, Jacksonville, Florida                       02119186
     A60190   Preaward Lease Review: First Tennessee Building, 530 S. Gay Street, Knoxville,        02/20/86
              Tennessee, Lease No. GS-04B-26027
     A60054   Review of Parking Facilities at West and Chambers Streets, New York, NY               02/21186
     A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-15460,            02/25/86
              Homewood, Alabama
     A50602   Review of the Honolulu Field Office, Region 9                                         02/25/86
     A50478   Review of Operations at the Patrick Henry Field Office                                02/26/86
     A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly-    02/27/86
              chlorinated Biphenyls (PCBs)
     A60126   Interim Report on PCBs                                                                02/28/86

     A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-23 1 10, Miami,   03/05/86
              Florida
     A50222   Review of Cleaning Service Contracts, Region 9                                        03105186
     A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly-    03/05/86
              chlorinated Biphenyls (PCBs)
     A50154   Review of the Buildings Management Field Office, San Juan, Puerto Rico                03/06/86
     A50222   Review of Cleaning Services Contracts, Region 2                                       03/06/86
     A50621   Review of Fire and Safety Deficiencies in Leased Space at 108 North Main, South       03/06/86
              Bend, Indiana
     A60021   Review of the National Capital Region's Lease Enforcement Activities: Results of      03/07/86
              Tenant Agencies' Questionnaire Responses
     A50621   Report on Fire and Safety Deficiencies in Leased Space at 1375 Euclid Avenue,         03/10/86
              Cleveland, Ohio
     A60247   Preaward Lease Review: Youngfield Park Building, Lakewood, CO, Lease No. GS-          03/12186
              08P-12730
     A60248   Preaward Lease Review: Insurance Exchange Building, 175 W. Jackson Boulevard,         03/12/86
              Chicago, Illinois, Lease No. GS-OS8-14338
     A60249   Preaward Lease Review: Insurance Exchange Building, 175 W. Jackson Boulevard,         03/12/86
              Chicago, Illinois, Lease No. GS-058-14353
     A602S1   Pre award Lease Review: Hamilton Building, 1375 K Street, NW, Washington, DC,         03/l4/86
              Lease No. GS-IIB-60024
     A60126   Review of Controls Over the Identification, Inspection, and Documentation of PCB      03/17/86
              Contaminants, Region 10
     A60258   Preaward Lease Review: Fullerton Industrial Park, 7943-7959 Culny Court and 7944-     03/18/86
              7960 Angus Court, Springfield, VA, Lease No. GS-llB-60047
     A50553   Review of GSA's Fire and Life Safety Program, Region 2                                03/20/86
     A60081   Review of Overtime Practices in the National Capital Region's Buildings Manage-       03/20/86
              ment Division
     A50553   Review of GSA's Regional Fire and Life Safety Program, Region 4                       03/21/86
     A50553   Review of GSA's Regional Fire and Life Safety Program, Region 9                       03/21/86
     A60234   Preaward Lease Review: 16 Court Street, Brooklyn, NY, Lease No. GS-02B-10317          03/24/86
36
A50621   Report on Deficiencies in Leased Space at 55 Erieview Plaza, Cleveland, Ohio, and       03/26/86
         Credits Due the Government
A50621   Report on Review of Deficiencies in Leased Space at 1405 South Harrison, East           03/27/86
         Lansing, Michigan
A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly-      03/27/86
         chlorinated Biphenyls (PCBs)
A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly-      03/27/86
         chlorinated Biphenyls (PCBs)
A50553   Consolidated Report on Review of GSA's Fire and Safety Program                          03/28/86
A60086   Review of Disposal of Government-Owned Real Property                                    03/28/86
A60260   Preaward Lease Review: Executive Tower, Denver, CO, Lease No. GS-08P-12742              03/28/86
A40779   Consolidated Report on Review of Concessions Operations                                 03/31/86
A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-21367, At-          03/31/86
         lanta, Georgia
A60126   Review of Controls Over the Identification, Inspection, and Documentation of Poly-      03/31186
         chlorinated Biphenyls (PCBs)


FSS      Contract Audits
A50662   Report on Review of Proposal for Initial Pricing Under RFP No. FNP-F5-1708-N-           10/03/85
         12-17-84: Open Office Products, Inc., Phoenix, Arizona
A60006   Limited Pre award Survey of Corliss Credit Services: Solicitation No. FGS-NI-XU248-     10/03/85
         N-5-7-85
A60007   Limited Pre award Survey of Capital Credit Corporation: Solicitation No. FGS-Nl-        10/03/85
         XU248-N-5-7-85
A60008   Limited Preaward Survey of STA Credit Corporation, Inc.: Solicitation No. FGS-Nl-       10/03/85
         XU248-N-5-7-85
A60009   Limited Preaward Survey of Datacom Systems Corporation: Solicitation No. FGS-           10/03/85
         NI-XU248-N-5-7-85
A50592   Preaward Audit of Multiple Award Schedule Contract: Synergetics International,          10/17/85
         Inc., Solicitation No. FGS-Y2-3900-N-6-25-85
A50624   Pre award Audit of Multiple Award Schedule Contract: Wenger Corporation, Solic-         10/17/85
         itation No. 10PN-NTS-0279
A50652   Preaward Evaluation of Pricing Proposal: BSN Corporation, Solicitation No. 10PN-        10/18/85
         NTS-0279
A50596   Preaward Audit of Cost or Pricing Data: Aquila Technologies Group, Inc., Solicitation   10/22/85
         No. FGE-D4-75345-N-4-23-85
A50612   Preaward Audit of Cost or Pricing Data: Curtiss-Wright/Marquette, Inc., Solicitation    10/22/85
         No. FEN-EW-A5312-N-5-22-85
A50445   Postaward Audit of Time and Material Contract: Lenexa Office Equipment, Inc.,           10/23/85
         Overland Park, Kansas, Contract No. GS-07S-10137
A50653   Audit of Termination Proposal: Sunbelt Industries, Inc., Contract No. GS-04F-00678      10/24/85
A60011   Preaward Audit of a Claim for Increased Costs: Commercial Flooring Specialists,         10/30/85
         Contract No. GS-08F-37643
A50651   Preaward Audit of Multiple Award Schedule Contract: Constructive Playthings,            10/31/85
         Grandview, Missouri, Solicitation No. 1OPN-NTS-0279
A60057   Preaward Audit of Cost or Pricing Data: Hild Floor Machine Company, Inc., Solic-        10/31/85
         itation No. 9FCO-OLV-N-A1213/85
A60065   Supplemental Review of Pre award Price Proposal: Solicitation No. 7PM-52678/R5/         11i01/85
         7FC, Monaco Enterprises, Inc., Spokane, Washington

                                                                                                            37
     AS0660       Preaward Audit of Multiple Award Schedule Contract: S & S Arts & Crafts, Solici-       1110S/85
                  tation No. lOPN-NTS-0279
     AS0647       Preaward Audit of Multiple Award Schedule Contract: Herman Miller, Inc., Solici-       11/1S/85
                  tation No. FGS-X8-38000-N
     AS0427       Preaward Audit of Cost or Pricing Data: John Savoy & Son, Inc., Solicitation No.       11/26/85
                  FNPS-S 1-1S26-N-4-1-8S
     ASOS9S       Pre award Audit of a Claim Submitted by Florida State University: Contract No. GS-     11129185
                  00C-700S0
     A60064       Pre award Audit of Multiple Award Schedule Contract: Lakeshore Curriculum Ma-          11/29/85
                  terials Company, Solicitation No. lOPN-NTS-0279
     A60038       Pre award Audit of Multiple Award Schedule Contract: Olesen, Solicitation No. lOPN-    12110/85
                  NTS-0279
     A60082       Pre award Audit of Multiple Award Schedule Contract: RACON, Inc., Solicitation         12/13/85
                  NO.7PM-S2678/RS!7FC
     A40673       Postaward Audit of Multiple Award Schedule Contracts: Sierra-Misco, Inc., Contract     12/18/85
                  Nos. GS-00S-S7139/S7140 for the Period 2/4/83 to 11130/83
     A40740       Postaward Audit of Multiple Award Schedule Contract: Sierra-Misco, Inc., Contract      12118185
                  No. GS-00S-86S00 (RENEWAL) for the Period 9/17/80 to 7/31181
     A40741       Postaward Audit of Multiple Award Schedule Contracts: Sierra-Misco, Inc., Contract     12/18/85
                  Nos. GS-00S-27473/27474 for the Period 8/1181 to 9/30/82
     A60041       Pre award Audit of Multiple Award Schedule Contract: Kaplan School Supplies,           12/20/85
                  Solicitation No. lOPN-NTS-0279
     A60078       Pre award Audit of Cost or Pricing Data: Sargent & Greenleaf, Inc., Solicitation No.   12/20/85
                  ATITC19842
     A60079       Preaward Audit of Multiple Award Schedule Contract: AXIA Incorporated, Nestaway        12/20/85
                  Division, Solicitation No. lOPN-NES-0379
     A600S9       Postaward Audit of Multiple Award Schedule Contract: Aritech Corporation, Con-         12/30/85
                  tract No. GS-07F-llS30 for the Period 9/l/84 to 8/31/8S
     AS060S       Audit of Termination Proposal: R. S. Data Systems, Contract No. GS-OWF-S2779           12/31/85
     A60114       Preaward Audit of Multiple Award Schedule Contract: Calgon Corporation, st. Louis,     01106/86
                  Missouri, Solicitation No. 7PM-S2679/SS!7FC
     A6000S       Preaward Audit of Cost or Pricing Data: Safeguard Technology, Inc., Solicitation No.   01/13/86
                  7PM-S2678/RS!7FC
     A600S6       Preaward Audit of Cost or Pricing Data: Clements National Company, Solicitation        OIl 13/86
                  No.9FCO-OLV-N-A1213
     A60117       Preaward Audit of Multiple Award Schedule Contract: Water Management Division,         01113/86
                  Clow Corporation, Solicitation No. 7PM-52679/S5!7FC
     A60099       Preaward Audit of Cost or Pricing Data: Emeco Industries, Inc., Solicitation No.       01116/86
                  FNPS-S6-1632-N -9-6-85
     A60100       Pre award Audit of Multiple Award Schedule Contract: InterMetro Industries Cor-        01116/86
                  poration, Solicitation No. lOPN-NES-0379
     AS0246       Preaward Audit of a Claim for Increased Costs: G & H Machinery Company, Contract       01121186
                  Nos. GS-05W-S61S3 and GS-05W-66269
     2C206440001 Postaward Audit of Multiple Award Schedule Contracts: Millipore Corporation, Bed-       01/29/86
                 ford, Massachusetts, Contract Nos. GS-00S-92604, -03205, and -23618
     A60115       Pre award Audit of Multiple Award Schedule Contract: Mogul Division of Dexter          01131/86
                  Corporation, Solicitation No. 7PM-52679/S5!7FC
     A60116       Preaward Audit of Multiple Award Schedule Contract: Dearborn Chemical Company,         02/04/86
                  Solicitation No. 7PM-52679!S5I7FC
     A60149       Preaward Audit of Multiple Award Schedule Contract: Nutmeg Chemkal Company,            02/06/86
                  Solicitation No. 7PM-52679!S5I7FC
38
A60218   Audit of Contract Claim: LF&J Automotive, Inc., St. Louis, Missouri, Term Contracts     02/12/86
         for Repair, Maintenance, and Overhaul of Government-Owned Vehicles
A50664   Pre award Audit of Cost or Pricing Data: Diversified Technical Services, Inc., Solic-   02/14/86
         itation No. GS-07F-11736
A50520   Pre award Audit of Multiple Award Schedule Contract: Cardkey Systems, Solicitation      02/25/86
         No. 7PM-52678/R517FC
A60153   Preaward Audit of Cost or Pricing Data: Terry Manufacturing Co., Inc., Solicitation     02/26/86
         No.8FCG-S1-50052
A50648   Postaward Audit of Multiple Award Schedule Contract: Medline Industries, Inc.,          02/27/86
         Contract No. GS-00S-27092
A60074   Review of Communications International, Inc.'s Cutover Invoice Dated July 30,1985:      02/27/86
         Contract No. GS-00K-8403C-0004
A60134   Pre award Audit of Multiple Award Schedule Contract: Betz Entec, Inc., Solicitation     03/11/86
         No. 7PM-52679/S517FC
A60231   Preaward Audit of Multiple Award Schedule Contract: Wilson Trophy Company, St.          03/17/86
         Louis, Missouri, Solicitation No. 7PM-52681/R517FC
A60193   Pre award Audit of Cost or Pricing Data: Boston Whaler, Inc., Contract No. GS-lOF-      03/18/86
         46572
A50565   Postaward Audit of Time and Material Contract: LF&J Automotive, Inc., S1. Louis,        03/21/86
         Missouri, Contract No. GS-06F-12843
A60102   Postaward Audit of Contract Billings: Information Systems and Networks Corp.,           03/21/86
         Contract No. GS-00C-60079
A60147   Preaward Audit of Cost or Pricing Data: Butler Fleet Maintenance Services, Solici-      03/25/86
         tation No. lOPN-NCS-0408
A60220   Pre award Audit of Multiple Award Schedule Contract: American Hoechst Corpo-            03/26/86
         ration, Solicitation No. FGE-A4-75361-N
A60235   Preaward Evaluation of Cost or Pricing Data: Rite-Size Machinery Company, Solic-        03/27/86
         itation No. 9FCO-OLK-NA1302/86
A40095   Postaward Audit: Onan Corporation, Contract No. GS-04S-23587, Initial Period,           03/28/86
         6/1/80 to 5/31/81
A40845   Postaward Audit: Onan Corporation, Contract No. GS-04S-23587, Renewal Period            03/28/86
         No.1, 6/l/81 to 5/31/82
A40846   Postaward Audit: Onan Corporation, Contract No. GS-04S-23587, Renewal Period            03/28/86
         No.2, 6/1/82 to 7/31/83
A60230   Preaward Audit of Cost or Pricing Data: Excel Manufacturing Corporation, Solici-        03/28/86
         tation No. ATIDQ 19958
A50130   Audit of Termination Proposal: Afro-Lecon, Inc., Subcontractor Under Small Busi-        03/31/86
         ness Administration Contract No. GS-02B-81675


FSS      Internal Audits
A40571   Review of the Quality Approved Manufacturer Agreement Program                           10/18/85
A50236   Review of Requisition Processing and Control, Region 5                                  01110/86
A40774   Review of Contract Awards Made Over Negative Preaward Surveys                           01/23/86
A40833   Review of Federal Supply and Services Long Supply Inventory                             01/30/86
A50537   Letter Report on the Federal Supply Service Economic Order Quantity Formula             01/31/86
A60013   Observation of Customer Supply Center Inventory, San Juan, Puerto Rico                  02/03/86
A50527   Review of Blanket Purchase Agreement Implementation                                     02/04/86
A50567   Review of Resolution of Quality Deficiencies of Material Produced by the Batch          03/06/86
         Process, Region 5
A60084   Review of Unreconciled Self-Service Store Inventories                                   03/14/86   39
     A50353   Review of the Region 4 Customer Supply Center                                         03/26/86
     A60076   Review of Customer Supply Center Operations, Anchorage, Alaska                        03/3l/86


     IRMS     Contract Audits
     A50557   Pre award Audit of Multiple Award Schedule Contract: NCR Corporation, USDPG           10/03/85
              Pricing and Financial Svcs., Solicitation No. GSC-KESA-C-00030-N
     A50431   Pre award Audit of Multiple Award Schedule Contract: Data General Corporation,        10/04/85
              Solicitation No. GSC-KESA-C-00030-N-4-11-85·
     A60015   Report on the Evaluation of Proposal RI 2867 Submitted in Response to Solicitation    10/04/85
              No. GSC-OIT-5013: Harris Corporation
     A60020   Report on Review of Proposal for Initial Pricing Under Solicitation No. GSC-KESA-     10/07/85
              C-00030: Norden Systems, Inc.
     A60022   Audit Report on Evaluation of Firm Fixed Price Proposal: PRC Government Infor-        10/07/85
              mation Systems, RFP No. GSC-OIT-5013
     A50562   Pre award Audit of Multiple Award Schedule Contract: Boeing Computer Services,        10/09/85
              Solicitation No. GSC-KECT-A-00008-N-4-10-85
     A60029   Audit Report on Evaluation of Subcontract Proposal Submitted by: Planning and         10/10/85
              Analysis, Incorporated, RFP No. GSC-OIT-5013
     A60032   Report on Evaluation of Initial Pricing Proposal No. 45843.000 Under RFP No. GSC-     10/15/85
              OIT-50l3 Submitted by: System Development Division, Defense Systems Group,
              TRW, Inc., Electronics and Defense Sector, Redondo Beach, California
     A60034   Audit Report on Evaluation of Price Proposal: Systems and Applied Sciences Cor-       10/15/85
              poration, RFP No. KECS-85-0 17
     A50656   Pre award Audit of Cost or Pricing Data: Sunair Electronics, Inc., Solicitation No.   10/16/85
              GSC-KESCR-00033-N-5-7-85
     A50610   Preaward Audit of Cost or Pricing Data: OAO Corporation, Solicitation No. KECS-       10/22/85
              85-017
     A50635   Pre award Audit of Cost or Pricing Data: REIIInforex, Inc., Solicitation No. GSC-     10/22/85
              KESA-C-00030- N-4-11-85
     A50516   Pre award Audit of Multiple Award Schedule Contract: Software AG of North Amer-       10/25/85
              ica, Inc., Solicitation No. GSC-KESA-C-00030-N-4-11-85
     A50523   Pre award Audit of Multiple Award Schedule Contract: Motorola, Inc., Communi-         10/28/85
              cations Sector, Solicitation No. GSC-KESCR-OOOH-N
     A50485   Preaward Audit of Multiple Award Schedule Contract: Tandem Computers, Inc.,           10/31/85
              Solicitation No. GSC-KESA-C-00030-N-4-11-85
     A60030   Postaward Audit of Multiple Award Schedule Contract: Data General Corporation,        11105/85
              Contract No. GS-00K-85-01-S5927 for the Period 10/l/84 to 9/30/85
     A50611   Preaward Audit of Cost or Pricing Data: Hetra Computer and Communications In-         11113/85
              dustries, Inc., Solicitation No. GSC-KESA-C-00030
     A50489   Pre award Audit of Multiple Award Schedule Contract: Sperry Corporation, Solici-      11I19/85
              tation No. GSC-KESA-C-00030-N-4-11-85
     A50631   Preaward Audit of Multiple Award Schedule Contract: Nautel Maine, Inc., Solici-       11/19/85
              tation No. GSC-KESCR-00030
     A50667   Audit of Termination Proposals: Sterling Systems Incorporated, Contract No. GS-       11120/85
              00C-40055
     A50137   Postaward Audit of Multiple Award Schedule Contract: Dysan Corporation, Contract      12/03/85
              No. GS-OOC-01690 for the Period 6/l3/79 to 3/31/80
     A60106   Report on Review of Proposal for Initial Pricing: Miltope Corporation, RFP No. GSC-   12/03/85
              KESA-C-00030-N-4-11-85
     A50481   Pre award Audit of Multiple Award Schedule Contract: Compucorp, Solicitation No.      12/05/85
              GSC- KESA-C-00030- N-4-11-85
40
A40567   Postaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Communi-       12/l1/85
         cations Group, Contract No. GS-00C-90824 for the Period 2/22/83 to 9/30/83
A60141   Audit Report on Evaluation of Price Proposal Submitted by Computer Data Systems,    12/30/85
         Incorporated: Solicitation No. KECS-85-021
A60101   Preaward Audit of Multiple Award Schedule Contract: Relational Technology, Inc.,    02/06/86
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A60161   Preaward Audit of Multiple Award Schedule Contract: Compaq Computer Corpo-          02/19/86
         ration, Solicitation No. GSC-KESA-G-00032-N-12-17-85
A60156   Preaward Audit of Cost or Pricing Data: OAO Corporation, Solicitation No. KECS-     02/24/86
         85-021
A60026   Postaward Audit of Contract Billings: OAO Corporation, Contract No. GS-00K-85-      02/28/86
         02D2341
A60237   Audit Report on Evaluation of Price Proposal Submitted by: Racal Communications,    02/28/86
         Incorporated, Solicitation No. KESCR-00033
A60236   Audit Report on Evaluation of Price Proposal Submitted in Response to RFP Number    03/05/86
         KECS-85-021: SASC Services, Incorporated
A60158   Pre award Audit of Multiple Award Schedule Contract: RCA Corporation, New Prod-     03/07/86
         ucts Division, Contract No. GS-00K-85AGS0008
A60208   Preaward Audit of Multiple Award Schedule Contract: Penril Datacomm, Solicitation   03/12/86
         No. GSC-KESA-G-00031-N-12-3-85
A60184   Pre award Audit of Multiple Award Schedule Contract: Computer Tape Source, Inc.,    03/l4/86
         Contract No. GSC-KESCR-00036-N-12-3-85
A60095   Postaward Audit of Multiple Award Schedule Contract: Prime Computer, Inc., Con-     03/17/86
         tract No. GS-00K-8401S5566
A40281   Postaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Communi-       03/18/86
         cations Group, Contract No. GS-00C-90109, Renewal No. I, 7/l/81 to 2/21183
A60016   Postaward Audit of Multiple Award Schedule Contract: M.P.H. Industries, Inc.,       03/31/86
         Chanute, Kansas, Contract No. GS-00K-8401S0420 for the Period 4/l/84 to 3/31/85
A60277   Postaward Audit of Multiple Award Schedule Contract: M.P.H. Industries, Inc.,       03/31/86
         Chanute, Kansas, Contract No. GS-00K-830IS0104 for the Period 4/1/83 to 3/31/84
A60313   Report on Evaluation of Initial Price Proposal Submitted by: Systems Management     03/31/86
         American Corporation, Norfolk, Virginia


IRMS Internal Audits
A40849   Review of the Operations of the Region 1 Contract Services Program                  10/28/85
A50309   Review of Office Automation in Region 9                                             12/17/85
A40397   Limited Review of Controls Over Payments to Teleprocessing Services Program Con-    12/30/85
         tractors, Office of Information Resources Management, Central Office
A40436   Review of the Management of Civilian Agencies Telecommunication Systems             12/30/85
A40848   Review of the Standard Level User Charge (SLUC) System Redesign Project             03/28/86


Other
GSA   Contract Audits
A50608   Audit of Cost Reimbursable Contract: Bulova Watch Company, Inc., Contract No.       03/27/86
         GS-00-DS-(P)-03003 for the Period 8/l/83 to 7/31/85




                                                                                                        41
     Other
     GSA Internal Audits
     A40701      Review of the Federal Managers' Financial Integrity Act, Section 4 for Fiscal Year     10/08/85
                 1984
     A50346      Final Report on Potential PCB Contamination at Curtis Bay Depot, Baltimore, Maryland   10/10/85
     A50346      Final Report on Potential PCB Contamination at Scotia Depot, Scotia, New York          10/10/85
     A50654      Review of Funding for Modular Building, Santa Ana Courthouse, Santa Ana, California    10/24/85
     A50215      Review of GSA Billings to the Federal Emergency Management Agency, Region 8            10/29/85
     A50068      Review of Regional Operations of the Office of Project Control and Oversight, Region   11104/85
                 2
     A50215      Review of GSA Billings to the Federal Emergency Management Agency, Region 4            11114/85
     A60060      Review of Imprest Funds, Region 8                                                      11114/85
     A60001      Review of Imprest Fund at Duluth, Atlanta East, Atlanta West, and Thomasville,         11120/85
                 Georgia
     A50215      Review of GSA Billings to the Federal Emergency Management Agency, Region 9            12/06/85
     A50657      Review of Imprest Fund of the Norfolk Buildings Manager, Norfolk, VA                   12/16/85
     A40489      Review of the Federal Managers' Financial Integrity Act, Section 2 for Fiscal Year     12/16/85
                 1984
     A50273      Review of Regional Operations of the Office of Project Control and Oversight, Region   12/20/85
                 1
     A60213      Review of Unresolved Issues in Federal Buildings Fund Reports                          02/l0/86
     A60138      Final Report on Controls Over the Reporting of Fiscal Year 1985 Consultants and        02/24/86
                 Appointments
     5F206280028 Review of the NEAR Vendor Payment History                                              02/25/86
     A60211      Review of the Use of Government Vehicles for Home-to-Work Transportation, Region       03/17/86
                 10
     A60211      Review of the Use of Government Vehicles for Home-to-Work Transportation, Region       03/17/86
                 7
     A60211      Review of the Use of Government Vehicles for Home-to-Work Transportation, Region       03/28/86
                 8
     A60033      Review of Travel Vouchers, Region 7                                                    03/3l/86


     Non-
     GSA         Internal Audits
     A50480      Review of the Administrative Procedures of the United States Commission on Civil       02/28/86
                 Rights




42
APPENDIX II-DELINQUENT DEBTS
GSA's Office of Comptroller provided the information presented     • In February 1986, GSA transferred financial re-
herein.                                                              sponsibility survey functions administered by the
                                                                     Credit and Finance Branch in Region 2 to Region
GSA Efforts to Improve                                               6. By placing GSA's financial survey functions in
                                                                     proximity to billing and collection functions, GSA's
Debt Collection                                                      "credit management cycle," as defined in OMB
                                                                     Circular A-129, Appendix 1, will be strengthened.
During the period October 1, 1985 through March 31,              GSA has continued to reduce non-Federal receivables
1986, specific activities undertaken by GSA to improve           and, therefore, reduce possible delinquencies. Several
debt collection and reduce the amount of debt written            actions, occurring after December 31, 1985, have re-
off as uncollectible have focused on upgrading collec-           sulted in further reductions to both the total non-Fed-
tion functions and debt management. These activities             eral receivables and delinquent amounts reported be-
included the following:                                          low. These included:
  • In October 1985, GSA awarded contracts to four                 • GSA's largest single delinquent account was re-
    collection agencies to make private collection serv-             scheduled under the provisions of a plan of ar-
    ices available to all departments and agencies. GSA              rangement approved by the U.S. Bankruptcy Court.
    is a participating agency.                                       This action removed a $6.6 million account from
  • In November 1985, GSA established a lockbox in                   delinquency status.
    Region 6 to collect general receipts directed to the           • The largest single mortgage-$20.2 million-in
    regional finance division. The lockbox is expected               GSA's portfolio was paid in full.
    to speed the flow of cash to the U.S. Treasury and
    facilitate the timely posting of collections to the            • GSA asked the Department of Justice to provide
    appropriate accounts, thereby reducing the chance                written authority to write-off a $701,896 judgment
    of a delinquency resulting from untimely process-                claim carried on GSA's accounts. The debtor has
    ing. A similar lockbox became operational in Re-                 ceased business operations and has no known as-
    gion 7 on March 1, 1986.                                         sets.
  • In December 1985, the Department of Justice, in
    response to a request from GSA, rendered an opin-
    ion on the impact of the Contract Disputes Act of            Non-Federal Accounts
    1978 (P.L. 95-563) on the collection provisions of
    the Debt Collection Act of 1982 (P.L. 97-365). The           Receivable
    opinion stated that claims arising from contracts
    subject to a disputes clause under P.L. 95-563 can           Because GSA utilizes manual reporting systems for its
    be pursued under the provisions of the Debt Col-             non-Federal accounts receivable, data for the period Oc-
    lection Act of 1982. However, prior to pursuing              tober 1, 1985 through March 31,1986 were not available
    such claims, GSA must define and document the                at the time of publication ofthis report. Six-month data
    extent to which administrative offset can be used            for the period June 30, 1985 through December 31, 1985
    to collect these claims.                                     are therefore provided.


                                                             As of                  As of
                                                          June 30, 1985        December 31, 1985      Difference

      Total Amounts
        Due GSA ........................... .               $65,449,915            $58,284,797       ($7,165,118)
      Amount Delinquent ............. .                     $19,628,235            $16,744,276       ($2,883,959)
      Total Amount Written
        Off as Uncollectible
        Between 6/30/85
        and 12/31/85 ..... .                                $216,801




                                                                                                                            43
